APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
————
No. 17-2211
————
CYNTHIA L. MERLINI,
Plaintiff, Appellant,
v.
CANADA,
Defendant, Appellee.
————
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MASSACHUSETTS
[Hon. Nathaniel M. Gorton, U.S. District Judge]
————
Before Lynch, Kayatta, and Barron,
Circuit Judges.
————
Theodore J. Folkman, with whom Murphy & King,
P.C. was on brief, for appellant.
John F. Cooney, with whom Benjamin E. Horowitz,
Venable LLP, D.E. Wilson, Jr., Andrew E. Bigart, and
Liz C. Rinehart were on brief, for appellee.
————
June 10, 2019
————

2a
BARRON, Circuit Judge. Cynthia Merlini (“Merlini”)
is a United States citizen who was injured in the course
of her employment as an administrative assistant at
the Canadian consulate in Boston, Massachusetts.
The injury occurred in 2009 when she tripped over a
cord in the consulate that had not been secured to the
floor. In 2017, as a result of that injury, Merlini sued
Canada for damages in the United States District
Court for the District of Massachusetts pursuant to
the Massachusetts Workers’ Compensation Act (the
“MWCA”), which is codified at Massachusetts General
Laws chapter 152.
The District Court dismissed Merlini’s complaint for
lack of jurisdiction after concluding that Canada was
immune from the suit under the Foreign Sovereign
Immunities Act (“FSIA”), 28 U.S.C. § 1602 et. seq. We
now reverse.
I.
In 2003, the government of Canada hired Merlini –
who is a resident of Massachusetts, a citizen of the
United States, and not a citizen of Canada – to be an
administrative assistant to the Consul General of
Canada in Boston. Merlini asserts, and Canada does
not contest, that her “duties” in this position “were
purely clerical, and comparable to the duties of an
assistant or secretary to an executive in any private
firm,” as “[s]he answered the phones, maintained files,
typed letters, and did other secretarial work” in the
Canadian consulate in Boston. She further asserts,
again without dispute, that “[s]he was not a consular
officer,” “[s]he had no governmental, consular, diplomatic, or official duties,” “[s]he took no competitive
examination before hiring,” and “she was not entitled
to tenure protections, or to the employment benefits
Canadian foreign service officers received.”

3a
Merlini alleges that, while setting up coffee and tea
service on January 22, 2009 for a meeting at the consulate, she tripped over an unsecured speakerphone
cord, fell, struck a credenza, and thereby sustained “a
serious injury” that left her unable to work. Canada
does not challenge that allegation for the purpose of
the present appeal. Additionally, it is undisputed that,
per Canada’s own national workers’ compensation
system, Canada paid Merlini what amounted to her full
salary from shortly after the accident until October
2009.
Sometime thereafter, however, Canada determined
that Merlini was able to return to work and ceased
paying her pursuant to its national workers’ compensation system. That determination appears to have set
matters on the course that has resulted in the suit that
is now before us on appeal.
The initial step on that course was Merlini’s request
that Canada reconsider its determination to stop
paying her under Canada’s workers’ compensation
system. Following Canada’s denial of that request for
reconsideration, Merlini shifted course and sought
relief under Massachusetts law.
Merlini did so first, in 2011, by bringing an administrative claim against the Massachusetts Workers’
Compensation Trust Fund (“WCTF”). That fund provides, among other things, for the payment of benefits
to employees who are unable to work in consequence
of workplace injuries that they have suffered while
working for an employer who is subject to personal
jurisdiction within the Commonwealth and who is
“uninsured” for purposes of the MWCA. See Mass.
Gen. Laws ch. 152 § 65(2)(e). Chapter 152 provides that,
to qualify as “insured,” an employer must (1) have
insurance with an insurer, (2) hold membership in a

4a
workers’ compensation self-insurance group certified
by the state, or (3) be licensed as self-insured annually
by the state, which requires the employer, among
other things, to complete a detailed application, provide certain financial information, post a surety bond
to or deposit negotiable securities with the state to
cover any losses that may occur, and purchase catastrophe reinsurance of at least $500,000. See Id. at
§§ 1(6), 25A; 452 Mass. Code Regs. 5.00; see also
LaClair v. Silberline Mfg. Co., 393 N.E.2d 867, 871
(Mass. 1979).
In 2013, the Massachusetts Department of Industrial
Accidents (“DIA”) held an evidentiary hearing, in which
Canada participated as amicus curiae for the WCTF,
on Merlini’s claim against the fund. An administrative
judge found that Merlini was entitled to ongoing
incapacity benefits from the fund under chapter 152
§ 34 (temporary total incapacity benefits) and chapter
152 § 34A (permanent total incapacity benefits).
The WCTF then appealed this ruling to the DIA’s
Reviewing Board (“DIA Board”). In 2015, the DIA Board
reversed the administrative judge’s ruling and denied
Merlini the benefits from the fund. The DIA Board
determined that (1) Canada was not “subject to the
personal jurisdiction of the Commonwealth”; (2) Canada
was not “uninsured” for purposes of the statute because
it had sovereign immunity; and (3) the WCTF was not
liable if an employee was entitled to workers’ compensation benefits in any other jurisdiction, Mass.
Gen. Laws ch. 152 § 65(2) (e) (i), and Merlini was in
fact entitled under Canadian law to such benefits under
Canada’s national workers’ compensation system.
In 2016, Merlini sought review of the DIA Board’s
ruling from the Massachusetts Appeals Court (“MAC”).
The MAC upheld the Board’s ruling. The MAC did so,

5a
however, only on the ground that, in consequence of
the injury that Merlini suffered at the consulate, she
had been entitled to benefits in another jurisdiction –
namely, Canada. Thus, the MAC did not “address
whether the Canadian government is subject to the
jurisdiction of the Commonwealth or whether the
Consulate was an ‘uninsured employer’ in violation of
chapter 152.”
Merlini did not appeal the MAC’s ruling. Instead, in
2017, Merlini sued Canada for damages in federal
district court in the District of Massachusetts
pursuant to chapter 152. It is that suit that is the
subject of this appeal.
Canada moved to dismiss Merlini’s suit on
jurisdictional grounds under Federal Rule of Civil
Procedure 12(b) (1). Canada contended in its motion
that it was entitled to foreign sovereign immunity
under the FSIA and thus that the District Court
lacked jurisdiction. Canada also separately moved to
dismiss Merlini’s suit under Federal Rule of Civil
Procedure 12(b)(6) for failure to state a claim. Canada
did so on the ground that the DIA Board’s ruling that
Canada was not “uninsured” was preclusive of
Merlini’s claim because the DIA Board had ruled on
that basis that Canada “was not required to obtain
local workers’ compensation insurance or register with
the state as a self-insurer and therefore could not be
considered an uninsured employer” under the MWCA.
In opposing Canada’s motion to dismiss, Merlini
first asserted that two exceptions to the FSIA’s presumption of foreign sovereign immunity applied: the
“commercial activity” exception, 28 U.S.C. § 1605(a)(2),1

1

This provision states that:

6a
and the “noncommercial tort” exception, Id. at
§ 1605(a)(5).2 Merlini thus contended that the District
Court had jurisdiction over Canada. Merlini also argued
that she had stated a claim against Canada because
the DIA Board ruling did not preclude her claim.
In December 2017, the District Court dismissed
Merlini’s complaint for lack of jurisdiction on the grounds
that, pursuant to the FSIA, Canada is “‘presumptively
immune’ from liability in federal courts of the United
States” and that Merlini had failed to demonstrate
A foreign state shall not be immune from the jurisdiction of courts of the United States or of the States in
any case in which the action is based upon a commercial activity carried on in the United States by the
foreign state; or upon an act performed in the United
States in connection with a commercial activity of the
foreign state elsewhere; or upon an act outside the
territory of the United States in connection with a
commercial activity of the foreign state elsewhere and
that act causes a direct effect in the United States.
2

This provision states that:
A foreign state shall not be immune from the jurisdiction of courts of the United States or of the States in
any case not otherwise encompassed in paragraph (2)
[the “commercial activity” exception] above, in which
money damages are sought against a foreign state
for personal injury or death, or damage to or loss of
property, occurring in the United States and caused by
the tortious act or omission of that foreign state or of
any official or employee of that foreign state while
acting within the scope of his office or employment;
except this paragraph shall not apply to – (A) any claim
based upon the exercise or performance or the failure
to exercise or perform a discretionary function regardless of whether the discretion be abused, or (B) any
claim arising out of malicious prosecution, abuse of
process, libel, slander, misrepresentation, deceit, or interference with contract rights.

7a
that either of the two FSIA exceptions on which she
relied in contesting Canada’s sovereign immunity applied.
Merlini v. Canada, 280 F. Supp. 3d 254, 256, 258
(D. Mass. 2017) (quoting Saudi Arabia v. Nelson, 507
U.S. 349, 355 (1993)). The District Court “decline[d]
to address” Canada’s separate contention that Merlini
had failed to state a claim for which relief could be
granted. Id. at 259. Merlini now appeals the District
Court’s dismissal of her claim for lack of jurisdiction
and also contends that the dismissal of her claim may
not be affirmed on issue preclusion grounds.
II.
We start by describing certain aspects of the
Massachusetts workers’ compensation scheme, as codified
by chapter 152 of the MWCA. Those provisions figure
prominently in the parties’ dispute over whether Canada
is entitled to foreign sovereign immunity in this case.
As a general matter, the MWCA bars an employee
from suing her employer for a work-related injury –
including one resulting from a fellow employee’s
conduct – when the employer is “insured” within the
meaning of the MWCA. See Mass. Gen. Laws ch. 152
§ 24. The MWCA imposes this bar by providing that
an employee waives the “right of an action at common
law . . . [with] respect to an injury that is compensable
under [the MWCA]” if the employer was insured
within the meaning of the MWCA at the time of the
employee’s hiring or became insured prior to the
employee’s injury, unless the employee preserves such
a right by providing proper notice of the employee’s
intent to preserve it. Id.
Chapter 152, however, sets forth a corollary to this
bar. It provides that, if an employer is not insured
within the meaning of the MWCA, then an employee,

8a
generally, may bring a suit against the employer to
recover for a workplace injury – even if the conduct is
caused by a fellow employee. See Hanover Ins. Co. v.
Ramsey, 539 N.E.2d 537, 538 n.3 (Mass. 1989) (“An
employer who has failed to obtain workers’ compensation insurance can be held liable essentially in all
cases in which the employee can prove that he was
injured in the course of his work.”).
Moreover, chapter 152 makes clear that, in such a
suit by the employee, the employer is deprived of asserting a host of important defenses that would ordinarily
be available at common law, which effectively renders
the employee’s claim against the employer a “strict
liability” claim. See Doe v. Access Indus., Inc., 137 F.
Supp. 3d 14, 16 (D. Mass. 2015); Coppola v. City of
Beverly, 576 N.E.2d 686, 687 (Mass. App. Ct. 1991).
Section 66 of chapter 152 specifies the limitations on
the defenses that are available as follows:
Actions brought against employers to recover
damages for personal injuries or consequential damages sustained within or without the
commonwealth by an employee in the course
of his employment . . . shall be commenced
within twenty years from the date the employee
first became aware of the causal relationship
between the disability and his employment.
In such actions brought by said employees . . .
it shall not be a defense: 1. That the employee
was negligent; 2. That the injury was caused
by the negligence of a fellow employee; 3. That
the employee had assumed voluntarily or contractually the risk of the injury; 4. That the
employee’s injury did not result from negligence or other fault of the employer, if such

9a
injury arose out of and in the course of
employment.
Merlini contends that, because Canada is not
insured (even as a self-insurer) within the meaning of
chapter 152, she is entitled under chapter 152 to bring
her suit against Canada for the workplace injury that
she suffered. And, she further contends, for that same
reason, Canada is subject in her suit to the limitations
on the defenses that are set forth in § 66. Canada
argues in response that, precisely because Merlini relies
on § 66, it is entitled to immunity under the FSIA,
even assuming that Canada does not qualify as being
“insured” within the meaning of chapter 152. Thus,
Canada contends, Merlini’s claim must be dismissed
for lack of jurisdiction.
We must now decide whether Canada is right. To do
so, we must address Merlini’s contention that Canada
lacks foreign sovereign immunity in consequence of
either of two exceptions to such immunity that the
FSIA recognizes.
III.
The FSIA “provides the sole basis for obtaining jurisdiction over a foreign state in federal court.” Universal
Trading & Inv. Co. v. Bureau for Representing
Ukrainian Interest in Int’l & Foreign Courts, 727 F.3d
10, 16 (1st Cir. 2013) (quoting Argentine Republic v.
Amerada Hess Shipping Co., 488 U.S. 428, 439 (1989)).
The FSIA establishes “a presumption of foreign sovereign immunity from the jurisdiction of the courts of the
United States” that typically controls the jurisdictional question. Id. (citing 28 U.S.C. § 1330; Verlinden
B.V. v. Cent. Bank of Nigeria, 461 U.S. 480, 485 n.5
(1983)). Thus, as a general matter, “courts in the

10a
Unites States lack both subject matter and personal
jurisdiction over a suit against a foreign sovereign.” Id.
The FSIA does, however, set forth a list of express
exceptions to the foreign sovereign immunity that it
generally recognizes, such that foreign states are not
immune from suit in federal court if one of those
“enumerated exceptions to immunity applies.” Id.
(citing 28 U.S.C. §§ 1604, 1605, 1605A; Verlinden, 461
U.S. at 488). Merlini invokes two of those exceptions –
the “commercial activity” exception and the “noncommercial tort” exception – in contending that Canada is
not entitled to sovereign immunity from her suit.
We focus here on one of them, the “commercial
activity” exception, 28 U.S.C. § 1605(a) (2), as we conclude that, contrary to the District Court’s ruling, this
exception does apply. This conclusion, moreover, precludes the “noncommercial tort” exception from applying.
See 28 U.S.C. § 1605(a) (5) (providing that “[a] foreign
state shall not be immune from the jurisdiction of
courts of the United States or of the States in any
case not otherwise encompassed in paragraph (2) [the
“commercial activity” exception]”). Our review of the
District Court’s ruling on this score is de novo. Universal
Trading, 727 F.3d at 15.
A.
The “commercial activity” exception provides in relevant part that “a foreign state is subject to jurisdiction
in any case ‘in which the action is based upon a
commercial activity carried on in the United States
by the foreign state.’” Fagot Rodriguez v. Republic of
Costa Rica, 297 F.3d 1, 5 (1st Cir. 2002) (emphasis
added) (quoting 28 U.S.C. § 1605(a) (2)). The inquiry
into whether the exception applies – at least in a case
like this, in which the parties agree that the foreign

11a
state “carried on” the relevant action “in the United
States” – involves two steps.
The first step “requires a court to ‘identify[] the
particular conduct on which the [plaintiff’s] action is
based.’” OBB Personenverkehr AG v. Sachs, 136 S. Ct.
390, 395 (2015) (alteration in original) (quoting Saudi
Arabia v. Nelson, 507 U.S. 349, 356 (1993)). In performing that threshold inquiry, “a court should identify
that ‘particular conduct’ by looking to the ‘basis’ or
‘foundation’ for a claim,” which the court has variously
described as “‘those elements . . . that, if proven, would
entitle a plaintiff to relief’” and as “the gravamen of
the complaint.” Id. (omission in original) (internal
citations omitted) (quoting Nelson, 507 U.S. at 357).
This inquiry requires more than a myopic focus on
whether “one element” of the claim is based upon a
“commercial activity” of the foreign state. See Id. at
394-96. The right approach looks beyond the fact that
a single element of the claim might be “based on” such
conduct and instead “zeroe[s] in on the core of” the
plaintiff’s claim. Id. at 396.
After a court identifies the particular conduct by the
foreign state on which the plaintiff’s claim is “based,”
the next step in the inquiry requires a court to determine whether that conduct qualifies as “commercial
activity.” Fagot Rodriguez, 297 F.3d at 5. If the
conduct does so qualify, then the “commercial activity”
exception to foreign state sovereign immunity applies,
at least when, as in this case, the parties do not
dispute that the conduct was “carried on” by the
foreign state “in the United States.”
“The term ‘commercial activity’ encompasses both ‘a
regular course of commercial conduct’ and ‘a particular
commercial transaction or act.’” Id. (quoting 28 U.S.C.

12a
§ 1603(d)). As we have explained, however, “the question is not whether the foreign government [was]
acting with a profit motive or instead with the aim of
fulfilling uniquely sovereign objectives,” but “[r]ather,
the issue is whether the particular actions that the
foreign state perform[ed] (whatever the motive behind
them) [were] the type of actions by which a private
party engages in ‘trade and traffic or commerce.’” Id.
at 6 (alterations in original) (quoting Republic of
Argentina v. Weltover, Inc., 504 U.S. 607, 614 (1992)).
Thus, “[i]n assessing whether a certain transaction or
course of conduct is commercial in character, courts
must look to the ‘nature’ of the activity rather than its
‘purpose.’” Id. at 5-6; see also 28 U.S.C. § 1603(d) (“The
commercial character of an activity shall be determined by reference to the nature of the course of
conduct or particular transaction or act, rather than
by reference to its purpose.”).
Against this legal background, the key questions
concerning the “commercial activity” exception that
we must address in this appeal are the following: what
conduct is Merlini’s claim against Canada “based on,”
and is that conduct “commercial activity”? We turn,
then, to those two questions, starting with the first.
B.
In taking up the first question, we begin by observing that Canada does not dispute that it employed
Merlini at its consulate in Boston, that she is an
American citizen and not a Canadian citizen, that her
employment involved only duties that “were purely
clerical,” and that her employment lacked indicia of
diplomatic or civil service.3 Nor does Canada contest,
3

As already mentioned, Canada does not contend that Merlini
had governmental, consular, diplomatic, or official duties; took a

13a
for purposes of this appeal, that Merlini was injured
while performing her ordinary clerical duties as Canada’s
employee in the consulate in Boston.
Thus, if Merlini’s complaint is “based on” Canada’s
employment of her as a clerical worker doing routine
clerical work at the consulate in Boston, then the
“commercial activity” exception would appear to apply.
See H. Rep. No. 94-1487, at 16 (1976), reprinted in
1976 U.S.C.C.A.N. 6604, 6615 (describing “[a]ctivities
such as a government’s . . . employment or engagement
of laborers, clerical staff or public relations or marketing agents . . . [as] those included within the definition
[of commercial activity]” (emphasis added)). In fact,
Canada does not appear to argue otherwise.
The State Department, in its amicus brief, however,
contends that Merlini’s complaint is solely “based on”
the negligent conduct by her fellow employee that
caused the injury that she suffered during the course
of her employment – namely, what she alleges in her
complaint to have been the negligent laying of the cord
by that employee. The Department then contends that
this conduct does not qualify as “commercial activity”
and thus that the “commercial activity” exception
does not apply. Rather, the Department contends, the
“noncommercial tort” exception is the only exception
that might apply in Merlini’s case, insofar as her action
under § 66 can be characterized – notwithstanding the
fact that it strips the employer of asserting an absence
of negligence as a defense – as one that seeks recovery
“against a foreign state for personal injury . . . caused
by [a] tortious act or omission.” 28 U.S.C. § 1605(a)(5)
competitive examination before hiring; or was entitled to tenure
protections or the employment benefits Canadian foreign service
officers receive.

14a
(emphasis added). The Department thus argues that
we should vacate and remand to permit Merlini to
develop her claim of negligence under the “noncommercial tort” exception.
To establish the premise on which this contention
rests – namely, that the suit is based solely on the
conduct of Merlini’s fellow employee with respect to
the speakerphone cord – the Department invokes the
Supreme Court’s opinion in Saudi Arabia v. Nelson.
There, the plaintiff argued that his claims of torture
and false imprisonment at the hands of the Saudi
Arabian government were “commercial” in nature
because it was his employment with the Saudi Arabian
government that “led to” those injuries. Nelson, 507
U.S. at 358. The Supreme Court, however, disagreed.
In so deciding, the Court held that it was wrong to
characterize the plaintiff’s claims as being “based
on” “commercial activity” simply because “commercial
activity” “preceded” the conduct from which those
claims arose. Id. Instead, the Court stressed that while
the plaintiff’s employment may have “led to” his
injuries at the hands of the Saudi Arabian government
in a temporal sense, the actions that effectuated those
injuries were in no way tied to that employment
and were, therefore, not “commercial” in nature. Id.
The Department argues that the same conclusion is
required here.
We disagree. The MWCA requires that Merlini
prove only that she was injured in the workplace in the
course of her employment with Canada. Consequently,
Merlini is not required to prove – as the plaintiff in
Nelson was required to prove as to his claims for
battery, unlawful detainment, wrongful arrest and
imprisonment, false imprisonment, inhuman torture,
disruption of normal family life, and infliction of

15a
mental anguish – any action by any person that caused
the underlying injury. She has to prove, instead, that
she suffered a workplace injury in the course of her
employment and that the defendant, Canada, was
her employer. Given that courts have held that an
employer’s maintenance of a hostile or discriminatory
work environment constitutes “commercial activity”
for the purposes of a Title VII suit against an
employer, 42 U.S.C. § 2000e-2(a), – see, e.g., Holden v.
Canadian Consulate, 92 F.3d 918, 922 (9th Cir. 1996);
Ashraf-Hassan v. Embassy of France in United States,
40 F. Supp. 3d 94, 102-03 (D.D.C. 2014) – we fail to see
why that same logic does not apply to Merlini’s § 66
claim against her employer for workplace injuries
suffered by employees during the course of their
employment. Hers is no more an ordinary slip and fall
case than those cases are ordinary harassment cases.
Each rests on a claim that makes the employer directly
liable for what happens in the workplace to the
employee who brings the suit.
To be sure, the Supreme Court has stressed that to
find the gravamen of any personal injury suit, one
must look to “the point of contact – the place where the
boy got his fingers pinched.” Sachs, 136 S. Ct. at 397
(internal quotations omitted). However, nothing in
that precedent requires that we assess that conduct
independent of the plaintiff’s actual claim, which, in
this case, is a claim against the employer – not a fellow
employee – and requires no proof that any fellow
employee engaged in any particular conduct.
We find the D.C. Circuit’s analysis in El-Hadad v.
United Arab Emirates instructive in this regard. 496
F.3d 658 (D.C. Cir. 2007). There, the Court held that
that the gravamen of the plaintiff’s complaint, which
alleged breach of contract for wrongful termination,

16a
involved “commercial activity,” in part, because it
occurred in the “employment context.” Id. at 663. In
choosing to focus on the “employment relationship . . .
as a whole,” the Court noted that a “narrow[er]” framing
of the gravamen of the complaint – focusing myopically
on the plaintiff’s defamation or breach of contract
claims divorced from the employment context – would
“defy analysis” under the “commercial activity” inquiry.
Id. at 663 n.1 (highlighting the difficulty of characterizing a “breach of contract,” without more, as “commercial”
or “non-commercial”).
Simply put, Merlini’s employment did not simply
“le[ad] to” the injury that she received; it provides the
legal basis for the only cause of action that she has
against her employer for the injury for which she seeks
to recover. See In re Opinion of the Justices, 34 N.E.2d
527, 544 (Mass. 1941) (establishing that chapter 152
§66 “must be interpreted as creating a cause of action
in an employee sustaining an injury ‘in the course of
his employment’ that is a ‘direct result’ of such employment though not a ‘direct result of any negligence on
the part of the employer’”).
We recognize that, as the Department notes, the
Supreme Court did not reject all of Nelson’s claims
on the ground that his allegations of “commercial
activity” (his employment) preceded the actual conduct
causing his injuries. Instead, in both Nelson and the
Court’s subsequent decision in Sachs, the Supreme
Court noted that, with respect to the plaintiffs’ failure
to warn claims, the exception triggering activities
(Nelson’s employment and Sachs’s ticket purchase)
were necessary elements of those claims. Nonetheless,
the Court concluded in both cases that the failure to
warn claims were impermissible because they were
“merely . . . semantic ploy[s],” Nelson, 507 U.S. 9 at

17a
363, “artful[ly] pled[],” Sachs, 136 S. Ct. at 396, to
avoid the foreign states’ sovereign immunity.
Insofar as the Department means to argue that
Merlini’s claims are, in some way, a similar “semantic
ploy” to avoid Canada’s sovereign immunity, no such
concerns exist here. Merlini’s chapter 152 claim was
not part of some shrewd litigation strategy aimed at
navigating around Canada’s sovereign immunity. It
was, instead, the only claim that Merlini could bring
against her employer for the workplace injury that she
suffered under the statutory framework established by
the Massachusetts legislature for permitting employees
to seek redress for such injuries from their employers.
That framework has, as one of its express aims, the
goal of incentivizing employers to comply with the law’s
worker’s compensation requirement so that employees
are ensured adequate coverage in situations where
they are injured during the course of their employment.
See In re Opinion of the Justices, 34 N.E.2d at 543-44
(describing the “manifest[] . . . purpose” of chapter
152 as “leav[ing] non-subscribing employers in such a
disadvantageous position that hardly any employer
could afford not to accept the insurance provisions of
the act”).
Thus, even if we were to accept that the gravamen
of Merlini’s complaint does not encompass Canada’s
choice to forgo obtaining the requisite insurance, we
still would find that the “commercial activity” exception applies. And that is because the conduct on which
her claim is based cannot be divorced from her “employment relationship” with Canada.
In so deciding, though, we emphasize that we reach
this conclusion because Merlini is a United States
citizen – and not a citizen of Canada – whom Canada
employed to work for it as clerical staff in the United

18a
States. Accordingly, Merlini is just the type of employee
whose employment by a foreign state Congress
identified as an example of “commercial activity” by a
foreign state. See H. Rep. No. 94-1487, at 16 (1976),
reprinted in 1976 U.S.C.C.A.N. 6604, 6615. Nor does
Canada argue that there is anything about Merlini’s
duties that supports a different conclusion. We thus do
not mean to suggest that the outcome would be the
same if Merlini’s position were not purely “clerical.”
See Kato v. Ishihara, 360 F.3d 106, 110-14 (2nd Cir.
2004) (characterizing “product promotion for Japanese
companies” as “governmental” and, therefore, noncommercial); Butters v. Vance Intern., Inc., 225 F.3d 462,
465 (4th Cir. 2004) (characterizing “[p]roviding security
for the royal family” of Saudi Arabia as “sovereign”
and, therefore, noncommercial).
C.
We turn, then, to Canada’s contention, which it also
made to the District Court, that “[t]he circumstances
of [Merlini’s] employment, and whether Canada could
or should have prevented the alleged accident,” are
“incidental and immaterial under [Merlini’s] theory of
the claim.” Canada points to the fact that Merlini is
relying in bringing her claim on chapter 152 § 66,
which provides that “[a]n employer is liable in tort
to an employee without proof of negligence if the
employer is required to maintain workers’ compensation insurance and fails to do so (or fails to become a
licensed self-insurer) . . . .” Thorson v. Mandell, 525
N.E.2d 375, 377 (Mass. 1988).
Canada argues that Merlini’s reliance on § 66 is of
critical importance in determining the gravamen of
her complaint. Canada contends that, due to her
reliance on that provision of chapter 152, Merlini is
necessarily bringing a claim that is “based on” “how

19a
Canada provides workers’ compensation benefits,”
given that her claim necessarily depends on the fact
that Canada chose to compensate her through a means
that does not qualify an employer as “insured” under
chapter 152.4 (Emphasis added).
The District Court appeared, at least at points, to
agree with Canada that the conduct that we must
assess to determine whether it is “commercial” in nature
is Canada’s “decision to provide benefits directly under
its own [national workers’ compensation insurance]
system.” In particular, the District Court, after describing “[t]he determinative question” at the first step of
the inquiry as being “whether [Canada’s] decision not
to purchase workers’ compensation insurance is commercial in nature,” ultimately concluded that Canada’s
“decision to provide its own benefits does not fall under
the commercial activit[y] exception because the decision to create and organize a workers’ compensation
program is sovereign in nature.” Merlini, 280 F. Supp.
3d at 257 (emphasis added).
The State Department, in its amicus brief, also
endorsed this position as an alternative to its argument that the gravamen of Merlini’s claim is more
appropriately characterized as a “noncommercial tort.”
The Department contends that “Canada opted out of
the Massachusetts workers’ compensation system in
a manner available exclusively to sovereigns – by
enacting a statute creating an alternate and uniform
compensation regime for all Canadian employees,
wherever in the world they might be.”

4

Notably, Canada does not dispute the fact that this activity
was conducted by the Canadian government, nor does it dispute
that it was performed in the United States.

20a
But, while Canada and the District Court are right
that Merlini’s claim does rely on § 66, nothing in § 66,
or, for that matter, the whole of chapter 152, makes
how an “uninsured” employer chooses to compensate
an injured employee of any relevance to a chapter 152
claim for damages against that employer. Chapter 152
requires, in relevant part, only that an employee must
show “that [the employer] had to carry worker’s [sic]
compensation insurance” for an employee and “that
[the employer] did not carry it.” Beath v. Nee, 74
Mass. App. Ct. 1119, 1119 (2009) (unpublished). The
statute does not require any showing regarding what
alternative means, if any, the employer may have used
to compensate the employee once the employee has
shown that the employer was not insured within the
meaning of chapter 152. Thus, while we must “zero[]
in on the core” of her claim, Sachs, 136 S. Ct. at 396,
and while we may not unduly seize upon merely one
element of her claim, see Id. at 394-96, Merlini’s
claim is in no sense “based on” Canada’s decision to
compensate her through its own national workers’
compensation system. See Sachs, 136 S. Ct. at 395
(explaining that “a court should identify . . . those
elements . . . that, if proven, would entitle a plaintiff
to relief, . . . and the gravamen of the complaint”
(internal citations omitted)).
That is not to say, though, that we reject Canada’s
contention that its decision to forgo insurance forms
part of what may be understood to be the gravamen
of Merlini’s claim. We may assume that it does. Cf.
Nelson, 507 U.S. at 358 n.4. But, even if we do, we
cannot ignore that Canada failed to obtain what
Massachusetts courts describe as “workers’ compensation
insurance,” see LaClair v. Silberline Mfg. Co., Inc., 393
N.E.2d 867, 869 (Mass. 1979), and that Merlini’s claim
is based on the fact that she is an employee who was

21a
injured during the course of her employment while her
employer failed to possess that type of insurance. See
El-Hadad, 496 F.3d at 663 (declining to divorce the
conduct on which a breach of contract claim was based
– the breach – from the “employment context” in which
it occurred). Thus, even accepting that the gravamen
of Merlini’s claim relates to Canada’s failure to obtain
the requisite insurance, our inquiry into whether it is
based on “commercial activity” would require us to
examine whether that failure – given the employment
context in which it occurred – constitutes “commercial
activity.”
In so doing, we must keep in mind that the characterization of conduct as “commercial activity” turns
on its “nature” rather than its “purpose.” 28 U.S.C.
§ 1603(d). Thus, a sovereign’s conduct constitutes “commercial activity” if “the particular actions that the
foreign state perform[ed] (whatever the motive behind
them) [were] the type of actions by which a private
party engages in ‘trade and traffic or commerce,’”
Fagot Rodriguez, 297 F.3d at 6 (alterations in original)
(quoting Weltover, 504 U.S. at 614). Applying that test,
we conclude that Canada’s employment of Merlini
without obtaining the requisite insurance is properly
deemed to be “commercial activity,” at least given
that Merlini is a United States citizen whom Canada
employed in Boston as clerical staff and that she seeks
recovery for the injury she suffered while performing
her clerical duties.5
5

Although we recognize that courts are instructed to give
“special attention” to the State Department’s views on matters of
foreign immunity, see Jam v. Int’l Finance Corp., 139 S. Ct. 759,
770-71 (2019) (quoting Bolivarian Republic of Venezuela v. Helmerich
& Payne Int’l. Drilling Co., 137 S. Ct. 1312, 1320 (2017)), we
are aware of no authority that would instruct us to adopt the

22a
1.
We start by considering whether, in general, an
employer’s failure, in employing its workers, to be
insured within the meaning of chapter 152 is the type
of conduct “by which a private party engages in ‘trade
and traffic or commerce.’” Fagot Rodriguez, 297 F.3d
at 6 (quoting Weltover, 504 U.S. at 614). We have little
doubt that it is.
Private employers in Massachusetts must regularly
decide whether, in employing their workers, they
should obtain the kind of insurance that chapter 152
contemplates or whether they instead should take
the risk of going bare. See, e.g., Brown v. Leighton, 434
N.E.2d 176 (Mass. 1982) (uninsured taxicab driver
employer); Barrett v. Transformer Serv., Inc., 374 N.E.2d
1325 (Mass 1978) (uninsured transformer service company employer); Truong v. Wong, 775 N.E.2d 405
(Mass. App. Ct. 2002) (uninsured tofu manufacturing
plant employer). That decision by employers about
their approach to insuring themselves against their
employees’ workplace injuries impacts the overall financial wellbeing of the employers’ businesses and generally
concerns parties (namely, their businesses’ employees)
who have commercial expectations about the recourse
that they will have against their employers in the
event that they suffer a workplace injury. See, e.g.,
Truong, 775 N.E.2d at 408 (establishing that the
corporation president did not purchase workers’ compensation insurance because it was “too expensive”); see
also Rush-Presbyterian-St. Luke’s Med. Ctr. v. Hellenic
Department’s views if we conclude – as we do here – that they
would have us run afoul of the statutory instruction that we not
permit the purposes behind foreign state actions to serve as
proxies for the nature of those actions. 28 U.S.C. § 1603(d);
Weltover, 504 U.S. at 614.

23a
Republic, 877 F.2d 574, 580-81 (7th Cir. 1989)
(describing the commercial obligations that arise out
of traditionally private, third-party transactions).6
In recognizing the commercial nature of this choice
by a business to go bare in employing someone, we
do not mean to question whether Canada was in so
“choosing” – while nonetheless employing Merlini, a
United States citizen, as a clerical worker in its consulate in Boston – motivated by what it characterizes as
its sovereign obligation to provide its employees protection through its own national workers’ compensation
system. In fact, Canada asserts that it has no legal
authority – given the limitations that it contends that
Canadian law imposes – to act otherwise. But, in light
of the Supreme Court’s decision in Weltover, it is clear
that the “motive behind” Canada’s conduct in employing Merlini without obtaining the requisite insurance
is not germane to the question of whether the activity
of doing just that is “commercial” for purposes of the
FSIA’s “commercial activity” exception. Fagot Rodriguez,
297 F.3d at 6 (quoting Weltover, 504 U.S. at 614); see
also 28 U.S.C. § 1603(d).
In Weltover, the plaintiffs brought a breach of
contract claim against Argentina after it defaulted on
6

Of course, it may be that, in some instances, a private business’s failure to become insured within the meaning of chapter
152 is less the product of a commercial choice than a commercial
oversight, see, e.g., O’Dea v. J.A.L., Inc., 569 N.E.2d 841 (Mass.
App. Ct. 1991) (employer alleged to be uninsured due to a policy
lapse), especially given how disadvantageous such a decision
would appear to be for the employer. But, such an oversight still
takes place in the course of the business’s employment of its
workers and in parallel with its business judgments about how to
protect against the commercial losses that might be incurred in
consequence of those workers suffering a workplace injury.

24a
its bonds. Weltover, 504 U.S. at 610. Argentina argued
in response that foreign sovereign immunity protected
it from the suit, pointing to the fact that the bonds
were not issued for the ordinary commercial purpose
of “raising capital or financing acquisitions” but instead
as instruments for refinancing sovereign debt. Id. at
616. According to Argentina, these refinancing measures
were required as part of the government’s program for
addressing its domestic debt crisis. Id. Argentina thus
argued that its decision not to repay the bonds was
part of a governmental policy undertaken for sovereign rather than commercial reasons and therefore
that the claim was based on activity that could not
qualify as commercial for FSIA purposes. Id. at 616-17.
The Supreme Court rejected Argentina’s contention.
Id. at 617. According to the Court, Argentina had
defaulted on what it termed “garden-variety debt.” Id.
at 615. Argentina’s bonds, like private bonds, were
negotiable, were traded on international markets, and
came with the promise of future repayment. Id. Thus,
for purposes of determining whether Argentina’s default
on those bonds was “commercial activity,” the Court
explained that Argentina’s participation in the bond
market was of a type that was commercial in nature
and thus that it was “irrelevant why Argentina participated in the bond market.” Id. (emphasis in original).
Canada, of course, did not issue bonds. But, it did
employ a United States citizen as clerical staff in its
Boston consulate, thereby engaging in conduct that it
does not dispute qualifies as being “commercial” in
nature. Nor does Canada dispute that private businesses, when employing such clerical workers, are
subject to the very same obligation to obtain insurance
in compliance with chapter 152 – insofar as they wish
to avoid being subjected to personal injury suits such

25a
as Merlini brings – or that their employment of such
workers without having such insurance, as applied to
those businesses, constitutes an activity that is commercial in nature.
We thus do not see how Canada’s maintenance of a
“garden-variety” employment relationship with Merlini
while not maintaining such insurance is an activity
that is any less “commercial” in nature than was
Argentina’s default on “garden-variety” debt in Weltover.
In each case, the foreign state can point to a sovereign
“purpose” in acting as it did. But in neither case does
that reason speak to the “nature” of the foreign sovereign’s conduct.7 As a result, Canada provides no more
7

The dissent argues that, in attempting to identify the “nature”
of Merlini’s claim, we ignore the “outward form of [Canada’s]
conduct,” which the dissent characterizes as “informing Merlini
that she was subject to the GECA . . . , compensating her
pursuant to the GECA’s benefits scheme after she made a claim
of injury, and not continuing her benefits when Canada’s
Workplace Safety and Insurance Board (WSIB) determined after
a full process that Merlini was ready to return to work.” However,
none of these actions constitutes the “outward conduct” that
forms the basis of Merlini’s claim against the Canadian government. The only “outward conduct” on Canada’s part that Merlini
needs to prove to succeed in her claim is defined by the elements
of the claim that § 66 permits her to bring. Those elements make
clear that she must prove that Canada was her employer in
Massachusetts when she suffered the workplace injury for which
she seeks recompense and that Canada did not comply with the
state’s workers’ compensation requirements while having her in
its employ. In fact, had Canada registered as a self-insurer in
compliance with chapter 152, it could have performed each of the
“outward” actions that the dissent outlines and Merlini would not
have had a claim that she could bring under Massachusetts law.
This point shows that the “outward conduct” described by the
dissent is simply immaterial to the claim that Merlini brings
here, such that her claim can in no sense be understood to be
“based on” it. She has a cause of action under Massachusetts law

26a
reason for us to conclude that its conduct is “sovereign”
rather than “commercial” than Argentina provided for
the Court in Weltover.
Moreover, we note that, in deciding Weltover, the
Supreme Court relied in part on the Seventh Circuit’s
reasoning in Rush-Presbyterian. Weltover, 504 U.S. at
614. There, Greece had entered into contracts with
American doctors but then only partially paid them for
their services. Rush-Presbyterian, 877 F.2d at 575-76.
The Greek government pointed out that it had assumed
these obligations as part of its comprehensive scheme
to provide healthcare to all of its citizens. Id. at 580.
According to Greece, the fact that its healthcare system
was not profit-seeking, was funded by taxpayers, and
operated through its own set of administrative
proceedings, placed Greece’s activity in retaining the
doctors’ services – and thus its alleged failure to pay
them fully for those services – squarely in the realm of
sovereign rather than “commercial activity.” Id. at
580-81.
The Seventh Circuit disagreed. The court made
clear that “private parties in the United States enter
such agreements routinely” and that “the ‘basic exchange’
of money for health care services is the same” whether
the payer is a government or a private employer. Id. at
581. The court thus ruled that Greece’s reasons for
characterizing its conduct as noncommercial related
against Canada for the workplace injury that she suffered only
because Canada employed her and, as her employer, did not
comply with the state’s workers’ compensation requirements.
Because that kind of conduct is the kind of conduct that private
employers engage in regularly it is conduct that is properly
characterized as “commercial activity,” at least given Merlini’s
particular attributes as a United States citizen working in the
Boston consulate as clerical staff.

27a
only to the purpose underlying Greece’s decision to
enter into the contracts with the doctors and then not
to pay them fully, rather than to the nature of the
decision to enter into those contracts or to breach
them. Id. at 580. And, for that reason, the Seventh
Circuit rejected Greece’s contention that the “commercial activity” exception did not apply.
Here, Canada, like Greece, entered into a contract
for commercial services – in this case, in the form of its
employment contract with Merlini, given that Canada
does not dispute the “commercial” nature of Canada’s
employment of her as clerical staff at the consulate.
And, then, after having done so, Canada, like Greece,
failed to do what state law required of employers
engaged in such typical commercial employment relationships – namely, in this case, to be “insured” within
the meaning of chapter 152 in employing Merlini.
To be sure, the existence of Canada’s own national
workers’ compensation system may explain Canada’s
motive for making a type of decision regularly made by
private commercial actors. But, the existence of the
foreign sovereign’s system of social insurance in RushPresbyterian helped to explain the purpose behind
that sovereign’s failure to undertake a duty commonly
required of employers engaged in commercial employment relationships. Yet, Rush-Presbyterian makes
clear that such a fact does not thereby alter the
commercial nature of that failure.
2.
Notwithstanding Weltover and Rush-Presbyterian,
Canada contends that this case is actually more
closely analogous to both Jungquist v. Sheikh Sultan
Bin Khalifa Al Nahyan, 115 F.3d 1020 (D.C. Cir. 1997)
and Anglo-Iberia Underwriting Mgmt. v. P.T. Jamsostek,

28a
600 F.3d 171 (2d Cir. 2010), in which the “commercial
activity” exception was held not to apply. See Jungquist,
115 F.3d at 1024; Anglo-Iberia, 600 F.3d at 176.
Neither case, however, supports Canada’s position.
In Jungquist, the D.C. Circuit held that the
“commercial activity” exception was inapplicable to
claims brought against officials of the government of
the United Arab Emirates for actions that those
officials took in administering the Abu Dhabi medical
program in compliance with the Crown Prince Court’s
orders. 115 F.3d at 1020. Specifically, the court determined that the officials engaged in no “commercial
activity” with the plaintiffs, but instead “fulfilled [the
government’s] obligations to the [plaintiffs] by performing their official tasks as administrators.” Id. at 1030.
In Anglo-Iberia, the Second Circuit held that
the “commercial activity” exception did not apply to
claims against the Indonesian government for a fraud
perpetrated by its employees in their capacities as
administrators of the state-owned social security insurer,
Jamsostek. 600 F.3d at 174. The court noted that providing insurance is an activity that both the government
and private markets perform. But, the court explained,
Jamsostek did not operate like a private insurer and
therefore its wrongful administration of that governmentrun insurance program did not qualify as “commercial
activity.” Id. at 176.
The reason that neither Jungquist nor Anglo-Iberia
aids Canada’s cause is simple. In each of those cases,
the claims at issue were based on the defendants’
administration of the government programs at issue
independent of any conduct by the foreign state as the
employer of the plaintiffs, such that it was the manner
of the administration of those programs – and not

29a
the manner of the foreign state’s employment of the
plaintiffs – that was alleged to be wrongful.
Merlini’s claim is quite distinct. Even on Canada’s
account, insofar as Merlini’s claim is based on more
than Canada’s employment of her at the consulate or
the conduct that caused the injury that she suffered
there, her claim is still based on the Canadian government’s decision to employ her for clerical work at
the Boston consulate while not having the insurance
contemplated by chapter 152. Thus, her claim is not
based – as the claims at issue in Jungquist and AngloIberia were – on any allegation that foreign state
officials acted wrongfully in administering a governmental program independent of the foreign state’s
employment of the plaintiff in circumstances in which
such employment concededly constitutes “commercial
activity.”
In that respect, Merlini’s claim is no different from
the claims that other employees have brought against
private business employers that, like Canada, have
not insured themselves in the manner chapter 152
specifies for the injuries that their workers may suffer
in the workplace. The existence of Canada’s own
nationally administered program for compensating
workers like Merlini, in other words, only provides the
justification for the conduct by Canada on which
Merlini’s claim is based. But that justification speaks
to Canada’s “purpose” in engaging in that conduct and
not to the “nature” of the conduct itself.
In fact, if Canada and the dissent’s views prevailed,
we struggle to understand what recovery for workplace harm – whether concerning wages, benefits, or
discriminatory treatment – an employee of a foreign
government, who, like Merlini, is a United States
citizen employed as a clerical worker, could seek from

30a
the employer under the “commercial activity” exception recognized in the FSIA. Yet, it is quite clear that
Congress, in enacting the “commercial activity” exception to foreign state immunity in the FSIA, contemplated
that some employees of foreign governments would be
entitled to recover for workplace harm against their
foreign state employer – namely, those employees
that, like Merlini, are United States citizens employed
in clerical positions. See H. Rep. No. 94-1487, at 16
(1976), reprinted in 1976 U.S.C.C.A.N. 6604, 6615
(describing “[a]ctivities such as a government’s . . .
employment or engagement of laborers, clerical staff
or public relations or marketing agents . . . [as] those
included within the definition [of commercial activity]”).
Nor are we aware of any precedent supporting the
notion that employees like Merlini lose their right to
recover against their foreign state employer whenever
that foreign employer establishes rules different from
ours for protecting them.8

8

The dissent relatedly argues that the “commercial activity”
exception should not apply to Canada in this context because, due
to Canada’s own workers’ compensation law, the government was
not allowed to comply with Massachusetts’ insurance requirements under chapter 152. We fail to see how Canada’s legislative
prohibition against obtaining the type of insurance that would
qualify Canada as being “insured” for purposes of chapter 152
renders the act of not acquiring compliant insurance any less
“commercial” in nature. As we have already argued, while Canada’s
sovereign workers’ compensation regime clearly provides the
motivation for its decision not to acquire compliant insurance
under chapter 152, that motivation does not strip Canada’s
decision not to provide the requisite insurance of its “commercial”
character, any more than the presidential decree directing
Argentina to default on its bonds stripped that act of its
“commercial” character in Weltover by way of constituting executive action. See Weltover, 504 U.S. at 610.

31a
3.
Finally, Canada contends that a ruling that it must
comply with the MWCA’s insurance requirements or
be stripped of many common law defenses in any suit
claiming damages for a workplace injury brought by
an employee against the employer would “produce an
absurd result.” Such a conclusion, Canada contends,
would essentially force Canada to subject itself to
having Massachusetts assess its solvency through
semi-annual audits and various deposit requirements.
According to Canada, that kind of intrusion into its
finances “would violate basic principles of comity” that
foreign sovereign immunity exists to protect. Thus, for
this reason, too, Canada contends, the “commercial
activity” exception cannot be construed to apply here.
We may, for present purposes, set aside the fact,
which Canada does not contest, that some foreign
consulates as well as the Quebec Government Office in
Boston, which is a political subdivision of Canada for
the purposes of FSIA applicability, apparently have
obtained the insurance required by chapter 152. The
more fundamental point is that Canada’s concerns
about “comity” do not provide a basis for concluding
that it is immune from suit in this case.
As Canada rightly points out, the “FSIA’s objective
is to give protection from the inconvenience of suit as
a gesture of comity.” Bolivarian Republic of Venezuela
v. Helmerich & Payne Intl Drilling Co., 137 S. Ct.
1312, 1322 (2017) (internal quotations omitted) (noting
that the FSIA was drafted with comity concerns in
mind). But, by including the “commercial activity”
exception in the FSIA, Congress made clear that
those concerns do not provide a reason to extend that
protection to foreign states with respect to a suit that
the “commercial activity” exception encompasses. Thus,

32a
an appeal to comity cannot in and of itself explain why
a foreign state’s conduct that is encompassed by that
exception should be treated as if it is not.
Perhaps there is a case to be made that such comity
concerns are relevant to a merits determination – as a
matter of Massachusetts or federal law – that chapter
152’s “insurance” requirement does not apply to a
foreign sovereign in the same way that it applies to
private employers. But, FSIA immunity applies only
if, under the analysis that we must apply, see Weltover,
504 U.S. at 614; Fagot, 297 F.3d at 5-6, the conduct on
which Merlini’s claim is based is not “commercial” in
nature. And, for the reasons that we have explained,
the conduct here is commercial in nature, even though
it may have been undertaken for sovereign reasons.
Canada’s appeal to comity, therefore, adds nothing
to its argument, which we otherwise reject, that the
“commercial activity” exception does not apply here.
And thus, Canada’s comity concerns provide no basis
for concluding that Canada enjoys an immunity from
this suit pursuant to the FSIA such that no federal
court even has jurisdiction to make a merits judgment.
In its amicus brief, the State Department advances
many similar “comity” concerns to those presented by
Canada. But, although we give “special attention” to
the State Department’s views on matters of foreign
policy, see Jam, 139 S. Ct. at 770-71, we decline to place
much weight on those views here. The Department itself
does not view recovery by an employee like Merlini
under § 66 against a foreign state employer to be
necessarily adverse to United States foreign policy
interests, given that it argues to us that Canada might
lack immunity from Merlini’s claim under the FSIA’s
“noncommercial tort” exception, 28 U.S.C. § 1605(a)(5).
And, as we have explained, the Department sets forth

33a
no basis in the legislative history or text of the FSIA –
or in any precedent construing it – for finding that
Canada is immune from a suit under § 66 that is
brought by a clerical worker like Merlini.
IV.
Having determined that the FSIA does not prohibit
Merlini’s suit, Canada argues that we should nevertheless affirm the District Court’s dismissal on a
ground not reached by the District Court. Specifically,
Canada argues that Merlini has failed to state a claim
upon which relief can be granted, see Fed. R. Civ. P.
12(b)(6), because the DIA Board’s ruling operates to
preclude Merlini’s suit.
The parties agree that we apply Massachusetts
issue preclusion law. In re Baylis, 217 F.3d 66, 70-71
(1st Cir. 2000). Canada contends that the DIA Board’s
conclusion that “Canada is not uninsured in violation
of [the MWCA]” should be entitled to preclusive effect
and thus bars Merlini’s “relitigation” of that issue in
federal court.
In order for an issue to have preclusive effect in a
later proceeding under Massachusetts law, the following
elements must be present: (1) there was a final judgment on the merits in the prior adjudication; (2) the
party against whom preclusion is asserted was a party
to the prior adjudication; and (3) the issue in the prior
adjudication was identical to the issue in the current
adjudication and essential to the earlier judgment. See
Kobrin v. Bd. of Registration in Med., 832 N.E.2d 628,
634 (Mass. 2005); see also In re Baylis, 217 F.3d at 71.
An order from a state agency is considered to be a final
judgment for issue preclusion purposes, however, only
if it is unappealed. See, e.g., Almeida v. Travelers Ins.
Co., 418 N.E.2d 602, 605 (Mass. 1981) (noting that the

34a
determination of an agency is not binding for preclusion purposes after it has been appealed). And here,
Merlini appealed the DIA Board’s ruling to the MAC.
Thus, it is to the MAC’s ruling that we must look.
The MAC’s ruling, however, is of no help to Canada’s
contention that Merlini’s claim must be dismissed on
issue preclusion grounds. In affirming the DIA Board’s
order, the MAC did so only on one ground – namely,
that Merlini was not entitled to recover from the
WCTF because she was eligible for benefits in another
jurisdiction. The MAC expressly stated that it was not
ruling on whether Canada was subject to the jurisdiction of Massachusetts or whether the consulate was an
“uninsured” employer in violation of chapter 152. For
that reason, the MAC’s “judgment is conclusive [only]
as to the first determination.” In re Baylis, 217 F.3d at
71. And, given that Canada makes no argument, just
as it made none to the District Court, that the
judgment as to the issue that the MAC did decide is
preclusive of Merlini’s claim, Canada’s argument for
dismissal pursuant to Federal Rule of Civil Procedure
12(b)(6) on the grounds of issue preclusion fails. See
P.R. Tel. Co., Inc. v. San Juan Cable LLC, 874 F.3d
767, 770 (1st Cir. 2017), cert. denied, 138 S. Ct. 1597
(2018) (holding that any argument not raised in the
party’s brief is deemed waived).
V.
For the foregoing reasons we reverse the District
Court’s grant of Canada’s motion to dismiss and remand
the case for further proceedings. The parties shall bear
their own costs.
-Dissenting Opinion Follows-

35a
LYNCH, Circuit Judge, dissenting. In this important
case affecting this country’s foreign relations, I respectfully disagree with my colleagues. The majority holds
that Canada is stripped of its sovereign immunity
under the commercial activity exception to the Foreign
Sovereign Immunities Act (“FSIA”), 28 U.S.C. § 1602
et seq. I disagree.
This suit is based on Merlini’s disagreement with
the decision of her employer, the Canadian consulate
in Boston, not to provide her with extended workers’
compensation benefits, having provided her with basic
benefits. That decision by Canada is required by a
Canadian legislative act, under which Canada has
chosen to provide its own workers’ compensation system
to all consulate employees, regardless of nationality. I
believe Canada’s actions are protected from suit by the
FSIA. Even if the suit could be viewed as based not on
a legislative act, but only on an administrative act by
Canada in its decision not to give Merlini an extension
on her benefits, Canada is still protected by sovereign
immunity.
Further, I think the policy implications of the majority’s view are grave. What is sauce for the Canadian
goose under the majority’s holding will prove to be a
bitter sauce for the American gander. The majority view
will, I believe, operate to the detriment of the United
States. Compelling Canada to abide by Massachusetts
state law, at the expense of maintaining its own workers’
compensation scheme, will redound to the harm of the
U.S. government’s functions abroad, as I discuss later.
Because a sovereign state is “presumptively immune
from the jurisdiction of United States courts” under
the FSIA, Saudi Arabia v. Nelson, 507 U.S. 349, 355
(1993), the burden falls upon Merlini to demonstrate
that an exception applies, see Universal Trading &

36a
Inv. Co. v. Bureau for Representing Ukrainian Interest
in Int’l & Foreign Courts, 727 F.3d 10, 17 (1st Cir.
2013) (citing Virtual Countries, Inc. v. Republic of S.
Afr., 300 F.3d 230, 241 (2d Cir. 2002)). I agree with the
district court that this burden has not been met. See
Merlini v. Canada, 280 F. Supp. 3d 254, 258 (D. Mass.
2017). I set out my reasons below.9
I.
I first consider the text and meaning of the FSIA.
The FSIA, enacted in 1976, “provides the sole basis for
obtaining jurisdiction over a foreign state in the courts
of this country.” Sullivan v. Republic of Cuba, 891
F.3d 6, 9 (1st Cir. 2018) (quoting Argentine Republic v.
Amerada Hess Shipping Corp., 488 U.S. 428, 443
(1989)). According to the Supreme Court, “the [FSIA’s]
manifest purpose [is] to codify the restrictive theory of
foreign sovereign immunity.” Nelson, 507 U.S. at
363.10 In a case cited approvingly by the Nelson Court,
the Second Circuit carefully laid out the scope of the
restrictive theory, which safeguards immunity for
“traditionally . . . quite sensitive” actions including
“internal administrative acts” and “legislative acts.”
9

I do agree with, and join, the majority in rejecting the State
Department’s arguments in its amicus brief that (1) Merlini’s
complaint is based only on the negligent conduct of her fellow
employee in laying the phone cord that Merlini tripped over and
so (2) we should vacate and remand for Merlini to make a
negligence claim under the noncommercial tort exception. But, as
discussed later, I agree with aspects of the State Department’s
brief, particularly concerning this country’s activities abroad.
10

Indeed, just months before the passage of the FSIA, the
Supreme Court noted that “it is fair to say that the ‘restrictive
theory’ of sovereign immunity appears to be generally accepted
as the prevailing law in this country.” Alfred Dunhill of London,
Inc. v. Republic of Cuba, 425 U.S. 682, 703 (1976).

37a
Victory Transp. Inc. v. Comisaria Gen. de Abastecimientos
y Transportes, 336 F.2d 354, 360 (2d Cir. 1964). And
the Nelson Court quoted from a much-cited law review
article by a leading commentator, stating, “[S]uch acts
as legislation . . . cannot be performed by an individual
acting in his own name. They can be performed
only by the state acting as such.” Nelson, 507 U.S. at
362 (quoting Hersch Lauterpacht, The Problem of
Jurisdictional Immunities of Foreign States, 28 Brit.
Y.B. of Int’l L. 220, 225 (1952)).
Under the FSIA’s commercial activity exception, a
foreign state is not immune from suit in a case
in which the action is based upon a
commercial activity carried on in the United
States by the foreign state; or upon an act
performed in the United States in connection
with a commercial activity of the foreign state
elsewhere; or upon an act outside the territory of the United States in connection with a
commercial activity of the foreign state elsewhere and that act causes a direct effect in
the United States.
28 U.S.C. § 1605(a)(2).11
11

The majority states correctly that its holding on the commercial activity exception, see 28 U.S.C. § 1605(a) (2), “precludes the
noncommercial tort exception from applying.” See Id. § 1605(a)(5).
I consider the noncommercial tort exception briefly on the
merits here. As the district court pointed out, the noncommercial
tort exception expressly does not apply to “any claim based upon
the exercise or performance or the failure to exercise or perform
a discretionary function regardless of whether the discretion be
abused.” 28 U.S.C. § 1605(a) (5) (A); see Fagot Rodriguez v.
Republic of Costa Rica, 297 F.3d 1, 8 (1st Cir. 2002); Merlini,
280 F. Supp. 3d at 258. Canada’s decision to enact a particular
workers’ compensation scheme clearly is a discretionary legisla-

38a
As the first step in considering this exception, we
must “identify[] the particular conduct on which
[Merlini’s] action is ‘based’ for purposes of the [FSIA].”
Nelson, 507 U.S. at 356. This requires “zero[ing] in on
the core of the[] suit,” OBB Personenverkehr AG v.
Sachs, 136 S. Ct. 390, 396 (2015), without focusing
merely on “a single element of a claim,” Id. at 395.12
That is, a court must identify the “gravamen of the
complaint.” Id.
Here, when we properly “zero[] in on the core of
[Merlini’s] suit,” Id. at 396, we see that it was the
sovereign decision by Canada to enact and administer
its own compensation scheme, including for all
workers at consulates,13 that is the basis for plaintiff’s
tive decision and is a decision “based on considerations of public
policy.” Berkovitz v. United States, 486 U.S. 531, 537 (1988).
Following the Supreme Court, we must avoid “judicial ‘second
guessing’ of legislative and administrative decisions grounded in
social, economic and political policy through the medium of an
action in tort.” United States v. S.A. Empresa de Viacao Aerea Rio
Grandense (Varig Airlines), 467 U.S. 797, 814 (1984). Thus,
Merlini’s argument that Canada’s conduct falls within the exception for noncommercial torts is unavailing.
12

In Sachs, the Court unanimously held that the commercial
exception did not apply to a claim concerning a grievous injury
from a rail accident in Austria, and did not permit jurisdiction
over the foreign state-owned railway. 136 S. Ct. at 393. The Court
rejected the Ninth Circuit’s reading of Nelson – that the commercial activity exception was properly met so long as a single
element of the claim met the exception – and said again that
courts must focus on the acts of the sovereign alleged to have
injured the plaintiff. “[T]he mere fact that the sale of the Eurail
pass would establish a single element of a claim is insufficient to
demonstrate that the claim is ‘based upon’ that sale for purposes
of § 1605(a)(2).” Id. at 395.
13

Consulates, like embassies, by their operation are not usual
places. They embody actions by a sovereign exercising its sover-

39a
claim of injury. Merlini seeks more in the way of
workers’ compensation than Canada has provided. I
disagree with the majority’s characterization of
Canada’s conduct as being “an employer’s failure . . .
to be insured” under state law, as though Canada were
a private employer making a discretionary, marketbased choice.14 The majority concludes that this is an
ordinary commercial omission made by an employer
who “take[s] the risk of going bare.” Thus, the majority
asserts that Merlini’s claim is “in no sense ‘based on’
Canada’s decision to compensate her through its own
national workers’ compensation scheme.” In my view,
the premise is wrong, and the conclusion is wrong.
To see why, one need only look to Canada’s Government Compensation Act (“GECA”), R.S.C. 1985,
c. G-5. That Canadian statute not only establishes the
exclusive framework for how local consulate staff, like
Merlini, receive benefits, but it also sets forth the sole
mechanism for appealing the denial of such benefits.
Accordingly, the GECA sets forth what the governeign powers; the consulate here is an extension of Canada.
As Canada says, the “[c]onsulate’s mission is to monitor and
interpret political and economic issues in the New England area;
represent Canadian sovereign interests on issues such as borders,
security, and trade; and provide consular services to Canadian
citizens in New England, among other functions.” I certainly do
not say that the FSIA question is resolved by the fact that the
accident happened in a consulate and to a person employed by a
consulate. But I think the majority gives insufficient attention to
these facts.
14

Canada argues that it does provide workers’ compensation
and that the chapter 152 definition of “uninsured” or “self-insured”
employer is irrelevant to its immunity, contrary to what the
majority suggests. And Merlini’s complaint argues not that the
consulate was uninsured as a factual matter, but that it “was
acting as a self-insurer without obtaining a [Massachusetts] license.”

40a
ment of Canada has determined, in its sovereign
discretion, to be the appropriate comprehensive workers’
compensation scheme for all of its federal employees,
at home and abroad. It does not matter, as the majority posits, that Merlini held only an administrative
position: The GECA clearly applies to all “locally
engaged” employees. See Id. § 7(1).
Important here, the GECA authorizes the government of Canada to compensate workplace injuries only
through the Canadian Consolidated Revenue Fund (if
a local fund exists in the jurisdiction where the injury
occurred), see Id., or directly through the government
of Canada, see Id. § 7(2). The Act does not authorize
any other means of compensation. As such, Canada,
as Merlini’s employer, was prohibited by law from
purchasing local Massachusetts insurance. Nothing
under the FSIA required the Canadian consulate to
flout its own Canadian laws. Contrary to the majority,
this issue is not, then, one of “motivation,” but of a
sovereign choice by Canada’s legislature untethered
from commercial activity (unlike, for example, the
issuance and repayment of bonds).
To enforce Canada’s uniform compensation scheme,
the consulate had to forgo Massachusetts workers’ compensation insurance. These “acts” – of enforcing the
Canadian uniform compensation scheme and of foregoing Massachusetts workers’ compensation insurance
– are the same. It is mere semantics to disaggregate
the two. Following the Supreme Court’s interpretations in Nelson15 and Sachs, then, Merlini’s suit is
15

In Nelson, discussed further in the following section, the
Supreme Court held that the suit was “based upon a sovereign
activity immune from the subject-matter jurisdiction of United
States courts under the [FSIA].” 507 U.S. at 363.

41a
“based upon” Canada’s enforcement and administration of a uniform compensation scheme, and not merely
one aspect of Canada’s conduct in enforcing and
administering this scheme.
II.
The second step of the commercial activity inquiry
requires determining whether the conduct that the
complaint is “based upon” is commercial rather than
sovereign. The FSIA defines commercial activity as
“either a regular course of commercial conduct or a
particular commercial transaction or act. The commercial character of an activity shall be determined by
reference to the nature of the course of conduct or
particular transaction or act, rather than by reference
to its purpose.” 28 U.S.C. § 1603(d). Thus, courts must
assess “whether the particular actions that the foreign
state performs . . . are the type of actions by which a
private party engages in ‘trade and traffic or commerce.’” Republic of Argentina v. Weltover Inc., 504
U.S. 607, 614 (1992) (quoting Black’s Law Dictionary
(6th ed. 1990)). Weltover requires that the “full context”
be considered. Id. at 615.
The majority asserts that Canada’s conduct cannot
be framed as a Canadian legislative directive to have
and enforce its own workers’ compensation scheme
because that goes to the “purpose” of Canada’s conduct, and not its “nature.” See 28 U.S.C. § 1603(d). I
disagree. Although it can be “difficult . . . in some cases
to separate ‘purpose’ (i.e., the reason why the foreign
state engages in the activity) from ‘nature’ (i.e., the
outward form of the conduct that the foreign state
performs or agrees to perform),” Weltover, 504 U.S. at
617 (emphasis omitted), that distinction here supports
my view.

42a
The “outward form of [Canada’s] conduct” includes,
among other things, informing Merlini that she was
subject to the GECA (this was done before her accident
and injury),16 compensating her pursuant to the
GECA’s benefits scheme after she made a claim of
injury, and not continuing her benefits when Canada’s
Workplace Safety and Insurance Board (WSIB)
determined after a full process that Merlini was ready
to return to work. Each of these actions was authorized, and, indeed, compelled by the GECA. I cannot see
how a country enacting its own law as to its employees
and then administering its own national compensation
scheme under that law as to those employed at its
embassies and consulates is not, by its “nature,” a
sovereign act. Put another way, the full administration of this scheme is not the “justification for the
conduct by Canada on which Merlini’s claim is based,”
it is the relevant conduct by Canada. The majority
asserts that this conduct is “simply immaterial,” and
we should treat Canada, a sovereign state, simply as
an “employer” who just “did not comply with the state’s
workers’ compensation requirements.” I disagree,
and view this conduct as clearly material to Merlini’s
claim.17 The majority, then, narrowly focuses on Merlini’s
16

Merlini’s complaint acknowledges that “the Consulate
instructed all its American employees, including Merlini, to apply
to the Government of Canada for benefits in the event of a workplace accident.”
17

The majority also says that, “had Canada registered as a selfinsurer in compliance with chapter 152, it could have performed
each of the ‘outward’ actions” that I list and “Merlini would not
have had a claim that she could bring under Massachusetts law.”
That counterfactual is not relevant to the majority’s assertion
that “none of these actions constitutes the ‘outward conduct’ that
forms the basis of Merlini’s claim against the Canadian
government.” The existence of an alternative form of compliance
with a Massachusetts statute (or, put another way, a method for

43a
employment and Canada’s failure to have workers’
compensation insurance under Massachusetts state
law, which I do not see as the relevant “course of
conduct”: Canada’s sovereign, full administration of
its workers’ compensation scheme.
The majority thrice cites to a single sentence in the
House Report about “employment or engagement” of
clerical staff, as though it provides support for its
conclusion. See H. Rep. No. 94-1487, at 16 (1976),
reprinted in 1976 U.S.C.C.A.N. 6604, 6615. It does not.
The full text of that paragraph of the report states:
The courts would have a great deal of latitude
in determining what is a ‘[commercial] activity’
for purposes of this bill. It has seemed unwise
to attempt an excessively precise definition of
this term, even if that were practicable.
Activities such as a foreign government’s sale
of a service or a product, its leasing of property, its borrowing of money, its employment
or engagement of laborers, clerical staff or
public relations or marketing agents, or its
investment in a security of an American
corporation, would be among those included
within the definition.
Id. This history does not support the majority’s use of
it. This case is not about whether Canada complied
with local law when it hired Merlini. No such dispute
is before us. Merlini was hired; this dispute is about
workers’ compensation and Canada’s choice of the
workers’ compensation it provides for its employees.
a sovereign state to stave off lawsuits) does not change the
character of Canada’s acts from sovereign to commercial, nor does
it mean that these acts are not the relevant conduct by Canada
underlying Merlini’s claim.

44a
Nothing in the legislative history says that any dispute
about post-employment compensation for workplace
injuries is within the exception for commercial activity.
This case is about Canada’s sovereign choice of a
comprehensive workers’ compensation scheme (a scheme
which did compensate Merlini). Canada chose to cover
all people employed at its consulates, whether U.S.
citizens or nationals of other countries, under its own
scheme.
Further, Canada’s action is not the “type of action[]
. . . which a private party [would] engage[] in,” Id. at
614. That is so because no private party can administer such a national statutory scheme.
My understanding comports with the Supreme
Court’s holding and reasoning in a series of cases. In
Weltover, the Court held that Argentina’s issuance of
bonds known as “Bonods” was a commercial act, even
though its purpose was to restructure the country’s
debt, 504 U.S. at 609-10, because the government was
acting “not as regulator of [the] market, but in the
manner of a private player within it.” Id. at 614. The
Court looked at the “full context,” Id. at 615, and
pointed to the fact that private parties regularly held
and traded such “garden-variety debt instruments.”
Id.
In this case, the very opposite is true: The Canadian
consulate’s decision to comply with and enforce the
workers’ compensation scheme established by the
GECA is precisely “the type of action[]” that a “regulator,” not a private employer, engages in. Id. at 614. To
be sure, a private employer can forgo purchasing
workers’ compensation insurance, but unlike Canada,
it does not and cannot do so as part and parcel of
enforcing a broader statutory scheme.

45a
Next, in Nelson, the Court firmly rejected the
argument that the recruitment and employment by
Saudi Arabia of foreign nationals – which was
arguably a commercial activity, and may have led to
the commission of intentional torts which injured the
plaintiffs – satisfied the commercial activity exception.
507 U.S. at 351. That is, the Court explicitly rejected
the argument that no more was required than “a mere
connection with, or relation to, commercial activity.”
Id. at 358.
The Nelson court emphasized that “a foreign state
engages in commercial activity for purposes of the
restrictive theory only where it acts ‘in the manner of
a private player within’ the market.” Id. at 360 (quoting Weltover, 504 U.S. at 614). The Court cited several
federal cases, some pre-FSIA, for the proposition that
immunity extends “to a foreign state’s ‘internal administrative acts.’” Id. at 361 (quoting Victory Transport,
336 F.2d at 360); see Herbage v. Meese, 747 F. Supp.
60, 67 (D.D.C. 1990), aff’d, 946 F.2d 1564 (D.C. Cir.
1991); see also Heaney v. Gov’t of Spain, 445 F.2d 501,
503 (2d Cir. 1971) (reiterating immunity for legislative
acts and administrative acts); Isbrandtsen Tankers,
Inc. v. President of India, 446 F.2d 1198, 1200 (2d Cir.
1971) (same). Whether viewed as primarily legislative
or administrative, Canada’s conduct here remains
sovereign.
The majority opinion, in my view, is also inconsistent with the Court’s prior precedent and other
circuit precedent. This circuit and others have rejected
the majority’s implicit premise that the nature of an
action can be determined by an abstract consideration
of whether some aspects of the broader governmental
conduct are like those “which a private party engages
in [during] ‘trade and traffic or commerce.’” Weltover,

46a
504 U.S. at 614. In my view, private parties cannot
create governmental workers’ compensation schemes
and so Canada’s actions are not like those of private
employers. But even if there were some likenesses to
a private employer’s decision to self-insure, that would
not be enough to strip Canada of its immunity under
fairly settled FSIA law.
Several circuits have correctly found that even
where government conduct is determined to be like
that in which private parties can and do engage, the
government conduct remains sovereign when performed as part of a broader governmental program.
I think the majority’s view is in conflict with the
Second Circuit decision in Anglo-Iberia Underwriting
Mgmt. v. P.T. Jamsostek, 600 F.3d 171 (2d Cir. 2010).
There, the Second Circuit held that an Indonesian
state-owned insurer was entitled to sovereign immunity against a negligent supervision claim because
neither Indonesia nor its state-owned insurer was
engaged in a commercial activity. Id. at 176. Even if
the insurer were arguably involved in a commercial
activity overall, the challenged activity (negligent supervision) was not sufficiently connected to commerce. Id.
at 179. That is, the state-owned insurer’s “hiring,
supervision, and employment of” individuals as part of
a comprehensive national health insurance program
was not a commercial act. Id. at 178.
The Second Circuit’s first holding was that the
sovereign there, Indonesia, “does not sell insurance to
workers or to employers in any traditional sense and
does not otherwise compete in the marketplace like a
private insurer.” Id. at 177 (internal quotation marks
omitted). Thus, it held that Indonesia’s insurance
scheme does not equate to that of an independent actor
in the private marketplace of potential health insurers.

47a
Instead, it determined that “the administration of
Indonesia’s national health insurance program” was
“sovereign in nature.” Id. at 178. Here, Canada also
does not compete in the marketplace as either seller
or buyer, nor does it offer its workers’ compensation
program to private employees.
The Second Circuit’s second holding was that “even
if . . . administration of Indonesia’s national health
insurance program and [the state-owned insurer’s]
employment . . . were commercial in nature,” the FSIA
would not allow “abrogat[ing] a foreign sovereign’s
immunity solely on the basis of an employment relationship.” Id. at 179. The majority attempts to distinguish
Anglo-Iberia on this second holding, saying “the claims
[there] were based on the defendants’ administration
of the government programs at issue,” as it was “the
manner of the administration . . . that was alleged to
be wrongful.” It is, at minimum, the administration by
Canada of its own workers’ compensation scheme that
is at issue here, too.
And my view is that Jungquist v. Sheikh Sultan Bin
Khalifa Al Nahyan further supports my point: The fact
that actions can be done by private actors does not
mean the actions fall within the commercial activity
exception where such actions were nevertheless “uniquely
sovereign in nature.” 115 F.3d 1020, 1030 (D.C. Cir.
1997). There, the two officials who saw to the provision
of the plaintiff’s healthcare were “performing their
official tasks as administrators of a government
[health and welfare] program.” Id. As here, then, the
sovereign actions involved the “administrat[ion] of a
government program [for health and welfare].” Id.
I also view the majority’s conclusion as being at odds
with rulings by the Ninth Circuit and D.C. Circuit.
In Gregorian v. Izvestia, the Ninth Circuit held that

48a
the Soviet Union was entitled to sovereign immunity
against a libel claim regarding a state-controlled
newspaper. 871 F.2d 1515, 1522 (9th Cir. 1989). That
the newspaper was sold and distributed in the United
States did not render commercial the nature of its
publication and distribution, as the “writing and publishing of articles reporting or commenting on events”
remained governmental because the paper was stateowned and operated. Id. The D.C. Circuit held similarly that Peru was entitled to sovereign immunity for
remodeling and operating a building as a chancery
allegedly in violation of local District of Columbia
zoning laws, because the operation of a chancery was
“by its nature governmental.” MacArthur Area Citizens
Ass’n v. Republic of Peru, 809 F.2d 918, 920 (D.C. Cir.
1987) (citation omitted).
In my view, it is incorrect to say that Merlini’s claim
is “no different from the claims that other employees
have brought against private businesses that . . . have
not insured themselves” under Massachusetts law. It
is analytically incorrect, partly because the broader
context must matter as to statutory interpretation and
application of the FSIA. If that broader context did not
matter, almost any governmental act could be disaggregated and framed as commercial conduct that a
private party can perform.
Since what Canada has done here is a governmental
act by its very nature, the majority cannot rely on
Rush-PresbyterianSt. Luke’s Med. Ctr. v. Hellenic
Republic, 877 F.2d 574 (7th Cir. 1989), even if the
case (whether rightly or wrongly decided) bears some
initial resemblance. There, the Greek government was
alleged to be in breach of a contract to reimburse physicians and an organ bank in Chicago for performing
kidney transplants on Greek nationals. Id. at 575.

49a
The Seventh Circuit held that Greece’s execution of
the contract constituted “commercial activity,” even
though it was done to fulfill the government’s constitutional goal of caring for the health of Greek citizens,
because “nothing about the provision of and payment
for health services . . . is uniquely governmental.” Id.
at 581.
Not so here. Canada’s conduct, its enactment of a
comprehensive workers’ compensation scheme and
decision not to award extended benefits, is the conduct
at issue, and it is “uniquely governmental.” Id. It is
one thing for a government to engage in a private,
commercial act (such as executing a contract) in order
to fulfill a general governmental purpose (such as
providing healthcare to its citizens).18 It is quite
another for a government to act in a manner strictly
and precisely compelled by its own law to maintain the

18

The Seventh Circuit in Rush-Presbyterian stated that
“[u]nder the Greek constitution, the government has a broad obligation to provide health care services to Greek citizens.” 877 F.2d
at 575. The Greek constitution does establish that “the State shall
care for the health of citizens and shall adopt special measures
for the protection of youth, old age, disability and for the relief of
the needy.” 2001 Syntagma [Syn.][Constitution] 21 (Greece) (trans).
This language seems closer to stating a general sovereign purpose
– caring for health of citizens – than a direct and precise mandate
such as at issue in the GECA.
In furthering this general constitutional goal, the Greek
government maintains a wide range of possible options. And
indeed, the Greek government has changed the precise cost and
provision of healthcare numerous times since Rush-Presbyterian
was decided, including, for example, eliminating health insurance for those who had been unemployed for more than two
years as part of austerity measures. See Lucy Rodgers & Nassos
Stylianou, How bad are things for the people of Greece, BBC News
(July 16, 2015), http://www.bbc.com/news/world-europe-33507802.

50a
uniformity of its own federal workers’ compensation
program. This distinction is important.
I return to my sense of the foreign policy repercussions of the majority’s view. The U.S. has undertaken
the same sovereign exercise abroad as to providing
workers’ compensation for U.S. embassy and consulate employees as has Canada. For over a century,
the U.S. has had a workers’ compensation scheme for
federal workers under the Federal Employees’ Compensation Act (“FECA”), 5 U.S.C. § 8101 et seq. FECA
expressly covers “noncitizens and nonresidents” who
are employees of the United States, such as employees
at U.S. embassies and consulates abroad. See Id.
§ 8137. The State Department tells us that “many
foreign nationals employed by U.S. embassies and
consulates – including Canadian citizens employed by
the United States in Canada – are currently entitled
to workers’ compensation benefits in virtue of United
States law, not local law.” Like the GECA, U.S. law
mandates that noncitizen, nonresident federal workers
employed abroad are subject to federal U.S. workers’
compensation law and procedures. See Id. In addition
to this statutory command, State Department regulations establish a “special schedule” for the compensation
of such embassy and consulate workers, except in
narrow circumstances. 20 C.F.R. § 25.2(b).
To say, then, that Canada is acting in a “commercial” manner when it imposes its own workers’
compensation scheme would lead to the conclusion
that our government’s like actions as to employees of
embassies and consulates abroad are similarly commercial, not sovereign. That, in my view, cannot be
right. A decision that Canada’s actions are merely
commercial risks providing cover for other countries to
ignore sovereign actions taken by the U.S. and allow

51a
liability against the U.S. government concerning
workers’ compensation under local laws. Indeed, the
State Department’s filing expresses concern with the
U.S. “fac[ing] increased exposure in similar claims
abroad.” I think it highly unlikely that Congress
intended such a result in drafting the FSIA. The effect
of the majority’s holding is to abrogate Canada’s
immunity from suit and force it to face a claim that
Massachusetts can require Canada to get local insurance when Canada has made a sovereign decision to
provide insurance itself through a comprehensive scheme.
Further, Merlini cannot escape from the fact that
she is challenging Canada’s imposition of its own compensation scheme in lieu of purchasing Massachusetts
workers’ compensation insurance. The majority finds
little significance in the fact that Canada provided
Merlini with compensation through Canada’s own
workers’ compensation system. Pursuant to the GECA,
Merlini received compensation, in the form of full
payment of her salary, from March until October 2009.
At that point, the WSIB determined that Merlini was
able to return to work and terminated her benefits.
Merlini chose not to appeal, which was open to her,
and instead began a decade-long legal battle in the
U.S. to obtain additional benefits from Massachusetts
and from Canada.
Finally, the majority also “emphasize[s]” throughout
that Merlini is an American citizen, and states that it
reaches its conclusion because of that fact. But that
cannot limit the reach of its opinion in any way. The
Massachusetts insurance statute, by its terms, applies
to workers of all nationalities employed locally, not
just U.S. citizens. So, by that logic, even the consulate’s Canadian employees are subject to the state
statute. The majority’s attempt to cabin its opinion by

52a
stressing that Merlini is an American citizen does not
work for yet another reason. The majority’s attempted
distinction based on citizenship of Canada’s consular
employees creates incentives to discourage Canada
from employing Americans in its consulate, and imposes
on Canada the costs and paperwork of administering
different workers’ compensation systems. In turn, the
majority’s attempted distinction would discourage
American embassies abroad from employing local
foreign citizens due to post-employment application of
local workers’ compensation law. But the choice to
employ such citizens and the mix of the nationalities
of employees at such consulates and embassies are
sovereign choices.
If the majority thinks, as it says it does, that its
result here, a denial of sovereign immunity, can be
limited to low-level, “purely clerical” workers, I think
that is mistaken. The logic of its analysis leaves no
room for that. Further, there is no support in the text
of the statute or the Supreme Court caselaw for such
a distinction. The same is true for any attempted
limitation based on Merlini’s American citizenship.
The purpose of sovereign immunity is to leave
sovereign issues to the sovereigns, not to the courts. I
respectfully dissent.

53a
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
————
No. 17-2211
————
CYNTHIA L. MERLINI,
Plaintiff, Appellant,
v.
CANADA,
Defendant, Appellee.
————
JUDGMENT
Entered: June 10, 2019
This cause came on to be heard on appeal from
the United States District Court for the District of
Massachusetts and was argued by counsel.
Upon consideration whereof, it is now here ordered,
adjudged and decreed as follows: The District Court’s
grant of Canada’s motion to dismiss is reversed, and
the matter is remanded for further proceedings consistent with the opinion issued this day. The parties
shall bear their own costs.
By the Court:
Maria R. Hamilton, Clerk

54a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
————
No. 17-2211
————
CYNTHIA L. MERLINI,
Plaintiff, Appellant,
v.
CANADA,
Defendant, Appellee.
————
Before Howard, Chief Judge,
Torruella, Lynch, Thompson, Kayatta, and Barron,
Circuit Judges.
————
ORDER OF COURT
Entered: October 23, 2019
The petition for rehearing having been denied by the
panel of judges who decided the case, and the petition
for rehearing en banc having been submitted to the
active judges of this court and a majority of the judges
not having voted that the case be heard en banc, it is
ordered that the petition for rehearing and the petition
for rehearing en banc be denied.
TORRUELLA, Circuit Judge. I voted in favor of
granting en banc review because this appeal raises “a
question of exceptional importance.” See Fed. R. App.
P. 35(a)(2).

55a
LYNCH, Circuit Judge, with whom HOWARD,
Chief Judge, joins, dissenting from the denial of
rehearing en banc. We regret that this court has
denied en banc review. We urge the Supreme Court to
grant review in this important case about the Foreign
Sovereign Immunities Act (FSIA), 28 U.S.C. § 1602 et.
seq. The opinion rests on what we view as significant
misreadings of FSIA and of Supreme Court FSIA precedent. Further, the opinion ignores the clear text of the
FSIA statute and impermissibly relies on supposed
legislative history – not text – to create distinctions
not in the statute. In our view, the decision is inconsistent with the views of other circuits, creating a
circuit conflict, and is in derogation of principles of
comity and international law.
Predictably, the majority opinion will precipitate a
reciprocal effect on this country’s foreign affairs at its
numerous embassies and legations abroad, and, as the
State Department has plainly stated, these effects will
be adverse to our national interest. The consequences
are far reaching: in this circuit alone, this opinion subjects over forty foreign consulates to the many variations
in local and state laws that are contrary to matters
that were determined by such countries’ legislatures.
The core legal issue is what conduct Merlini’s claim
against Canada is “based upon.” See Saudi Arabia v.
Nelson, 507 U.S. 349, 356 (1993); OBB Personenverkehr
AG v. Sachs, 136 S. Ct. 390, 396 (2015). Here, the
correct answer should have been that the claim is
based upon Canada’s sovereign choice, by legislation,
to have its own workers’ compensation scheme for all
of its government employees, including those at its
Boston consulate. In focusing on a downstream consequence of Canada’s sovereign decision instead of the
decision itself, the majority opinion misreads the text

56a
of FSIA and misconstrues Nelson, Sachs, and Republic
of Argentina v. Weltover Inc., 504 U.S. 607 (1992). The
opinion also conflicts with cases from the D.C., Second,
and Ninth Circuits. See Anglo-Iberia Underwriting
Mgmt. v. P.T. Jamsostek, 600 F.3d 171 (2d Cir. 2010);
Jungquist v. Sheikh Sultan Bin Khalifa Al Nahyan,
115 F.3d 1020 (D.C. Cir. 1997); Gregorian v. Izvestia,
871 F.2d 1515 (9th Cir. 1989); MacArthur Area Citizens
Ass’n v. Republic of Peru, 809 F.2d 918 (D.C. Cir. 1987).
Beyond that, the opinion’s assertion that its rationale
will lead to the loss of Canada’s sovereign immunity
only as to low-level workers (for which it cites a House
Committee Report),1 itself violates rules of statutory
interpretation. Nothing in the text of FSIA carves out
differential treatment based on the perceived level or
relative importance of a worker’s responsibilities. See
28 U.S.C. § 1605 (laying out “[g]eneral exceptions to
the jurisdictional immunity of a foreign state”).2 The
opinion thus violates the tenet that legislative history
may not be used to alter text. See Food Mktg. Inst. v.
Argus Leader Media, 139 S. Ct. 2356, 2364 (2019)
1

The House Report itself may not be relied on, even if use of
legislative history were appropriate. See Am. Broad. Cos., Inc. v.
Aereo, Inc., 573 U.S. 431, 457-58 (2014) (Scalia, J., dissenting)
(cautioning against using “a few isolated snippets of legislative
history” from a committee report “as authoritative evidence of
congressional intent even though they come from a single report
issued by a committee whose members make up a small fraction
of one of the two Houses of Congress”); NLRB v. Health Care &
Ret. Corp. of Am., 511 U.S. 571, 582 (1994) Mgt is the function of
the courts and not the Legislature, much less a Committee of one
House of the Legislature, to say what an enacted statute means.”
(quoting Pierce v. Underwood, 487 U.S. 552, 566 (1988))).
2

Indeed, Canada’s legislation rejected that distinction. See
Government Employees Compensation Act, R.S.C. 1985, c. G-5
§ 7(1) (Can.) (applying to all “locally engaged” employees).

57a
(“Even those of us who sometimes consult legislative
history will never allow it to be used to ‘muddy’ the
meaning of ‘clear statutory language.’” (quoting Milner
v. Dep’t of Navy, 562 U.S. 562, 572 (1999))); Chamber
of Commerce of U.S. v. Whiting, 563 U.S. 582, 599
(2011) (“[Congress’s] authoritative statement is the
statutory text, not the legislative history.” (quoting
Exxon Mobil Corp. v. Allapattah Servs., Inc., 545 U.S.
546, 568 (2005))); Shannon v. United States, 512 U.S.
573, 584 (1994) (“[C]ourts have no authority to enforce
a principle gleaned solely from legislative history that
has no statutory reference point.” (alterations omitted)
(quoting Int’l Bhd. of Elec. Workers, Local Union No.
474 v. NLRB, 814 F.2d 697, 712 (D.C. Cir. 1987))).
As said in Boos v. Barry, 485 U.S. 312, 323-24
(1988), this country protects other countries’ sovereign
immunity so that “similar protections will be accorded
to [the U.S. abroad].” See also Bolivarian Republic of
Venezuela v. Helmerich & Payne Int’l Drilling Co., 137
S. Ct. 1312, 1322 (2017); Nat’l City Bank of N.Y. v.
China, 348 U.S. 356, 362 (1955). The State Department
has told us that “many foreign nationals employed by
U.S. embassies and consulates – including Canadian
citizens employed by the United States in Canada –
are currently entitled to workers’ compensation benefits
in virtue of United States law, not local law.” See
Federal Employees’ Compensation Act, 5 U.S.C. § 8101,
et. seq.3 The majority’s conclusion that Canada’s admin-

3

The Federal Employees’ Compensation Act (FECA), first
enacted in 1916, is the “exclusive measure of compensation” for
federal employees with work-related injuries or illnesses, including non-citizen, non-resident employees working outside of the
United States. 20 C.F.R. § 25.2(d); see Johansen v. United States,
343 U.S. 427, 440 (1952) (describing FECA as a “system[] of
simple, certain, and uniform compensation for injuries or death”

58a
istration of its own statutory workers’ compensation
scheme here is not protected by its sovereign immunity leads to the conclusion that our government’s
similar actions as to employees, foreign or American,
of its consulates and embassies will not be granted
immunity.4 By denying Canada’s choice to implement
a federal workers’ compensation scheme the respect
and deference it is entitled to, the consequences of the
opinion will likely be that FECA – Congress’s choice of
comprehensive workers’ compensation – will not be
given that deference. We do not believe Congress
intended such an outcome.
For these reasons, we dissent.
By the Court:
Maria R. Hamilton, Clerk

designed “to make a workable, consistent, and equitable whole”
(citation omitted)).
4

The United States embassies, consulates, and legations
abroad would have to conform not only to a foreign country’s contrary national laws, but also a range of sub-national and regional
laws (say, from a particular canton, state, or province). Here, a
sub-national law, from Massachusetts, creates the perceived
conflict. In a country where the United States is operating
multiple diplomatic posts (which is true in numerous countries;
for example, there are about nineteen posts in Mexico), the
opinion would have the United States operate different schemes
and systems for foreign nationals employed in the same country,
doing essentially the same job.

59a
APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
————
Civil Action No. 17-10519-NMG
————
CYNTHIA L. MERLINI,
Plaintiff,
v.
CANADA,
Defendant.
————
MEMORANDUM & ORDER
GORTON, J.
Cynthia Merlini (“Merlini” or “plaintiff”) filed this
action against the sovereign nation of Canada (“defendant”) in March, 2017. She claims that during her
employment by the Consulate General of Canada in
Boston, an arm of the Government of Canada (“the
Consulate”), she suffered an injury that left her disabled.
Pending before this Court is defendant’s motion to
dismiss for lack of jurisdiction. For the reasons that
follow, defendant’s motion to dismiss will be allowed.
I. Background
A. Alleged Injury
Merlini states that she is a United States citizen
living in Massachusetts and that she is not a Canadian
citizen or national. She worked for defendant at the
Consulate in a clerical position from 2003 to 2009. Her

60a
duties were secretarial and included answering the
telephone, maintaining files and typing letters.
Merlini claims that on January 22, 2009, while
preparing coffee and tea for a meeting at the Consulate’s
office, she tripped over an unsecured speakerphone
cord and fell, striking a credenza. She alleges that as
a result of that accident, she suffered a serious bodily
injury that rendered her unable to work. In this action,
Merlini seeks damages for physical and mental pain
and suffering, medical expenses, past and future lost
wages, physical dysfunction and loss of earning capacity.
B. Procedural History
Merlini maintains she received benefits from the
Government of Canada pursuant to Canadian law
from March, 2009, until October, 2009, at which point
the Government of Canada stopped paying her benefits. She did not appeal the discontinuation of benefits
in Canada.
Merlini brought a claim against defendant in the
Massachusetts Department of Industrial Accidents
(“DIA”). She alleged that defendant neither purchased
workers’ compensation insurance nor obtained a license
as a self-insurer, in violation of Massachusetts workers
compensation law. M.G.L. c. 152. An administrative
law judge (“ALJ”) at DIA found Merlini was entitled
to permanent and total incapacity benefits and other
benefits from the Massachusetts Workers’ Compensation
Trust Fund.
The DIA reviewing board reversed the ALJ’s decision,
finding that 1) Canada was not within the Commonwealth’s personal jurisdiction, 2) Canada was not
improperly uninsured because it had immunity under
the Foreign Sovereign Immunities Act (“FSIA”) and
3) Merlini had no claim because she was entitled to

61a
benefits under Canadian law. Merlini appealed the
reviewing board’s decision to the Massachusetts Appeals
Court. In re Merlini, 154 N.E.3d 606 (Mass. App. Ct.
2016) (unpublished table opinion). The Massachusetts
Appeals Court held that the DIA reviewing board
correctly reversed the ALJ, concluding the reviewing
board properly found Canadian law applied and that
Merlini’s remedy, if any, was against the Canadian
government. Id. at *2. The Court did not address the
issue of whether the Canadian government is subject
to jurisdiction in the Commonwealth, id., and Merlini
did not petition the Massachusetts Supreme Judicial
Court for further appellate review.
On March 23, 2017, Merlini filed a complaint in this
Court, alleging defendant violated M.G.L. c. 152, § 66.
She claims defendant is strictly liable for her injuries
because defendant was unlawfully uninsured under
the Massachusetts workers’ compensation statute.
Defendant filed a motion to dismiss in June, 2017,
contending that 1) this Court lacks subject-matter
jurisdiction to hear Merlini’s claim, 2) the DIA Reviewing
Board’s decision precludes Merlini from bringing this
case and 3) Merlini has failed to state a claim upon
which relief can be granted. Because this Court agrees
with defendant that it lacks subject-matter jurisdiction to hear plaintiff’s case, it will address only that
issue.
II. Defendant’s Motions to Dismiss for Lack of
Subject-Matter Jurisdiction
A. The Foreign Sovereign Immunities Act
Pursuant to Fed. R. Civ. P. 12(h)(3), if this Court
“determines at any time that it lacks subject-matter
jurisdiction the court must dismiss the action.” A

62a
defendant may present a defense of lack of subjectmatter jurisdiction by motion. Fed. R. Civ. P. 12(b).
Pursuant to FSIA, 28 U.S.C. § 1602 et seq.,
[s]ubject to existing international agreements
to which the United States is a party at the
time of enactment of this Act a foreign state
shall be immune from the jurisdiction of the
courts of the United States and of the States[.]
28 U.S.C. § 1604. In other words, a foreign sovereign
defendant is “presumptively immune” from liability in
the federal courts of the United States. Saudi Arabia
v. Nelson, 507 U.S. 349, 355 (1993).
FSIA provides limited exceptions to a foreign sovereign’s immunity, however, and these exceptions
constitute “the sole basis for obtaining jurisdiction
over a foreign state in the courts of this country.”
Argentine Republic v. Amerada Hess Shipping Corp.,
488 U.S. 428, 443 (1989). Relevant here are the
commercial activity and tortious activity exceptions.
Under the commercial activity exception, a foreign
state is not immune from jurisdiction of the United
States courts when a foreign state’s action is:
[1)] based upon a commercial activity carried
on in the United States; [2)] performed in the
United States in connection with a commercial activity of the foreign state elsewhere [or
3)] outside the territory of the United States
[and] in connection with a commercial activity
. . . [that] causes a direct effect in the United
States.
28 U.S.C. § 1605(a)(2).
Under the tortious activity exception, a foreign state
is not immune from jurisdiction of the United States

63a
courts when “money damages are sought against a
foreign state for personal injury or death . . . occurring
in the United States” that are caused by a tortious act
or omission of that foreign state or its employee while
acting withinin the scope of his/her employment. Id.
§ 1605(a)(5). The tortious activity exception, however,
does not apply to a claim
based upon the exercise or performance or the
failure to exercise or perform a discretionary
function regardless of whether the discretion
be abused.
Id. § 1605(a)(5)(A).
B. The Commercial Activity Exception
Plaintiff avers that her claim falls within FSIA’s
commercial activity exception to foreign sovereign
immunity. The parties do not dispute that defendant
qualifies as a “foreign state” for purposes of the Act
under 28 U.S.C. § 1605(3)(a). Plaintiff relies on the
first clause of the commercial activities exception,
claiming that defendant is liable for its commercial
activities in Massachusetts.
An action is “based upon” commercial activity when
that conduct forms the “basis” or “foundation” for a
claim, and that “element[] of the claim, if proven,
would entitle a plaintiff to relief under his theory of
the case.” Nelson, 507 U.S. at 357. In assessing
whether a certain activity is commercial, “courts must
look to the nature of the activity rather than its
purpose.” Fagot Rodriguez v. Republic of Costa Rica,
297 F.3d 1, 5-6 (2002) (internal citations omitted).
The court must address whether the foreign state’s
actions, regardless of the motive behind them, “are the
type of actions by which a private party engages in

64a
trade and traffic or commerce.” Republic of Arg. v.
Weltover, Inc., 504 U.S. 607, 614 (1992) (internal
citations omitted) (emphasis in original). A sovereign
state engages in commercial activity with respect to
FSIA when “it exercises only those powers that can
also be exercised by private citizens” rather than
“powers peculiar to sovereigns”. Nelson, 507 U.S. at
360 (internal quotation marks and citations omitted).
Plaintiff asserts that defendant violated M.G.L. c.
152, § 65(2)(e) by choosing not to purchase workers’
compensation insurance and defendant is therefore
strictly liable for her injuries. Id. Plaintiff contends
that her claim is “based upon” defendant’s decision to
provide its own system of benefits to its employees.
Nelson, 507 U.S. at 357. The determinative question
is, therefore, whether defendant’s decision not to purchase workers’ compensation insurance is commercial
in nature. Weltover, Inc., 504 U.S. at 614.
Defendant’s decision to provide its own benefits does
not fall under the commercial activities exception
because the decision to create and organize a workers’
compensation program is sovereign in nature. See
Nelson, 507 U.S. at 361 (concluding abuse of power by
police is sovereign in nature and does not fall within
exception); cf. Weltover Inc., 504 U.S. at 614 (holding
refinancing bonds is not sovereign in nature and
does fall within exception). A sovereign defendant’s
decision to offer and structure its own form of benefits
is not comparable to exercising a power that could also
be leveraged by private citizens. Weltover Inc., 504
U.S. at 614. Thus, the actions on which the claim is
founded are not commercial in nature and the commercial activities exception to FSIA does not apply
here. § 1605(a)(2); Fagot Rodriguez, 297 F.3d at 5-6.

65a
C. The Tortious Activity Exception
Plaintiff also avers that her claim falls within
FSIA’s tortious activity exception to foreign sovereign
immunity. 28 U.S.C. § 1605(a)(5). She contends that
defendant’s failure to acquire insurance pursuant to
M.G.L. c. 152, § 66 comprises the requisite tortious
conduct.
The tortious activity exception does not apply, however,
to claims that involve the exercise of discretion. See
Fagot Rodriguez, 297 F.3d at 8. A challenged government action is protected as discretionary if the conduct
in question is a matter of choice or involves an element
of judgment and if that judgment is of the kind that
the discretionary function exception was designed to
shield. Fagot Rodriguez, 297 F.3d at 9. The provision
serves to prevent “judicial second guessing” of public
policy decisions. Id.
Defendant does not dispute that its decision to
maintain its own system of workers’ compensation
insurance involves an element of choice. Id. The issue
is whether defendant’s choice is a legislative or administrative decision grounded in social, economic or political
policy. Id. In other words, the essential question here
is whether the challenged action is based on “some
plausible policy justification”. Id. at 11.
The decision to provide benefits to workers injured
in their employment is inherently grounded in a social,
economic and political policy and is based on a plausible policy justification. Id. at 9, 11. Because plaintiff’s
claim is based on defendant’s decision to provide its
own system of benefits and to remain uninsured in
Massachusetts, the claim applies to discretionary conduct. 23 U.S.C. § 1605(a)(5)(i). Accordingly, the tortious

66a
activity exception to FSIA does not apply to plaintiff’s
claim. Id.
D. Conclusion
Because plaintiff has failed to demonstrate that
one of the exceptions to FSIA applies here, defendant
is presumptively immune from liability. 28 U.S.C.
§ 1604. Accordingly, this Court lacks subject matter
jurisdiction to hear plaintiff’s case and declines to
address the other arguments raised by defendant. Id.
ORDER
In accordance with the foregoing, defendant’s motion
to dismiss for lack of subject matter jurisdiction
(Docket No. 12) is ALLOWED.
So ordered.
/s/ Nathaniel M. Gorton
Nathaniel M. Gorton
United States District Judge
Dated: December 7, 2017

67a
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
————
Civil Action No. 1: 17-cv-10519-NMG
————
CYNTHIA L MERLINI,
Plaintiff,
v.
CANADA,
Defendant.
————
ORDER OF DISMISSAL
Gorton D.J.
In accordance with the Court’s Memorandum & Order
dated 12/7/2017 granting the Defendant’s motion to
dismiss (dkt. no. 12), it is hereby ORDERED that the
above-entitled action be and hereby is DISMISSED.
12/7/2017
Date
By the Court,
/s/Stephanie Caruso
Deputy Clerk

68a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
————
Civ. A. No.
————
CYNTHIA L. MERLINI,
Plaintiff,
vs.
CANADA,
Defendant.
————
COMPLAINT
PRELIMINARY STATEMENT
1. Cynthia L. Merlini (“Merlini”), an American living
in Massachusetts, worked for the Consulate General
of Canada in Boston, an arm of the Government of
Canada (“the Consulate”) in a clerical position. In 2009,
she was injured on the job and suffered a serious bodily
injury that left her unable to work. The Consulate had
not complied with the Massachusetts workers’ compensation statute by purchasing workers’ compensation
insurance or by obtaining a license as a self-insurer.
Nor had it ever complied with the provisions of the
workers’ compensation statute requiring it to notify
Merlini of her rights under Massachusetts law. Instead,
in disregard of the law, which obligates foreign consulates to comply with the workers’ compensation statutes
just as all other employers must, the Consulate
instructed all its American employees, including Merlini,

69a
to apply to the Canadian government for benefits
in the event of a workplace accident. In sum, the
Consulate was acting as a self-insurer without obtaining a license. It ignored Massachusetts law outright,
apparently because it believed, wrongly, that its status
as a foreign consulate provided it with immunity from
the otherwise routine application of Massachusetts
law. In this action, Merlini seeks damages to compensate her for her workplace injury.
JURISDICTION
2. Canada is a foreign state. On information and
belief, the Consulate is an arm of the Canadian
government but is not a legal entity separate from the
Government of Canada itself with the capacity to sue
or be sued.
3. This action is based on Canada’s commercial
activities in the United States, namely, its employment of Merlini at the Consulate, as is more fully
alleged below. The commercial activity exception to
foreign sovereign immunity, 28 U.S.C. § 1605(a)(2),
applies.
4. In the alternative, this is an action against a
foreign state for personal injury occurring in the United
States and caused by the tortious acts or omissions of
Canada or its employees or officials while acting within
the scope of office or employment, as is more fully
alleged below. The non-commercial tort exception to
foreign sovereign immunity, 28 U.S.C. § 1605(a)(5),
applies.
5. The Court has jurisdiction of this action under 28
U.S.C. § 1330(a).

70a
FACTS
A. The Consulate.
6. The Consulate is Canada’s consular post for New
England (excluding Connecticut). Its office is in
Boston. The mandate of the Consulate is to promote
Canada’s interests in the region, including advancing
political, economic, academic, and cultural ties,
promoting trade and investment, and providing
consular assistance to Canadians.
B. Merlin’s Job at the Consulate.
7. Merlini was hired by the Consulate in 2003. She
was assistant to the Consul General. She was hired in
Massachusetts, and her place of work was in
Massachusetts.
8. Merlini is an American citizen and a resident of
Massachusetts. She is not a Canadian citizen or
national.
9. Her duties were clerical, and comparable to the
duties of the secretary or assistant to an executive at
any private business. For example, she answered the
telephone, maintained files, typed letters, and
performed other secretarial tasks.
10. Indeed, at the time of the accident, she was
setting up a coffee and tea service for a meeting the
Consul General was to attend.
11. Merlini was not a consular officer, nor did she
perform any governmental, consular, diplomatic, or
other official tasks.
12. She took no competitive examination before
being hired, was not entitled to tenure, and was not
entitled to the same benefits as a foreign service
officer.

71a
C. The Accident.
13. On January 22, 2009, at the Consulate’s office,
Merlini was setting up a coffee and tea service for a
meeting that was to be held at the Consulate.
14. In the room, a speakerphone was on a table. The
cord of the speakerphone ran across the floor of the
room.
15. An employee of the Consulate negligently failed
to secure the speakerphone cord to the floor. The
decision—if it was a conscious decision—not to secure
the cord in a safe manner was not the exercise of any
discretionary function.
16. Merlini tripped over the unsecured cord, got
tangled in the cord, and fell, striking a credenza.
17. As a result of the accident, she suffered a serious
bodily injury that has rendered her unable to work.
18. Merlini’s damages, which she seeks in this
action, include physical and mental pain and suffering, medical and related expenses, past and future lost
wages and benefits, physical dysfunction, and loss of
earning capacity.
D. The Consulate’s Failure to Comply with the
Workers’ Compensation Statute.
19. Under Massachusetts’s workers compensation
statute, all employers, with limited exceptions not applicable here, are required either to purchase workers’
compensation insurance or to obtain a license as a selfinsurer.
20. The Consulate did neither. At the time of the
accident—and, on information and belief, at all other
times—the Consulate has been uninsured under the
Massachusetts statute.

72a
21. The statute also requires employers to notify
employees of their rights under the statute. For
example, the statute requires employers to notify
new employees that the employer has provided for
payment of workers’ compensation either through an
insurer or through self-insurance in accordance with
the statute. It also requires employers to provide a
notice to the employee as well as to the Massachusetts
government within seven days of receipt of notice of a
workplace injury. The Consulate did neither of these
things. The only notices relating to workers’ compensation that the Consulate ever provided to Merlini
related to benefits provided under a Canadian statute.
22. Merlini was unaware of her rights under
Massachusetts law at the time of her injury.
E. Prior Litigation
23. Merlini initially received benefits from the
Government of Canada under Canadian law from
shortly after the accident until October 2009, when the
Government of Canada ceased paying benefits.
24. Because the Consulate was uninsured under
Massachusetts law, Merlini brought a claim against
the Workers’ Compensation Trust Fund seeking total
incapacity benefits. Canada participated in the proceedings. An administrative judge in the Department
of Industrial Accidents found that Merlini was entitled
to permanent and total incapacity benefits and other
benefits under the Massachusetts workers’ compensation law. After lengthy proceedings, including two
decisions by the DIA Reviewing Board and an appeal
to the Appeals Court, the Appeals Court held, in an
unpublished decision, that Merlini was not entitled to
benefits from the Trust Fund because the Trust Fund’s
statute, G.L. c. 152, § 65(2)(e)(i), provides that the

73a
Trust Fund is not liable if the claimant was “entitled
to workers’ compensation benefits in any other jurisdiction.” Merlini’s Case, 89 Mass. App. Ct. 1130 (2016)
(mem.). The court did not reach the Trust Fund’s claim
that Canada had foreign sovereign immunity or its claim
that the Consulate was not an “uninsured employer”
under the worker’s compensation law.
25. Merlini’s entitlement to benefits under Canadian
law, as found by the Appeals Court, is not a defense to
Merlini’s claim for personal injury against the Consulate,
as it was to her claim for benefits against the Trust
Fund.
Count One
G.L. c. 152, § 66
26. Merlini incorporates the allegations of paragraphs 1 to 25.
27. The Consulate, and thus Canada, is an employer
for purposes of G.L. c. 152, § 66.
28. The Consulate, and thus Canada, was uninsured
under the worker’s compensation law of Massachusetts.
29. Merlini was the Consulate’s, and thus Canada’s,
employee.
30. Merlini suffered a personal injury in the course
of her employment.
31. Merlini has suffered damages as a proximate
result of the personal injury in the course of her
employment.
32. The Consulate, and thus Canada, is strictly
liable for Merlini’s damages, without regard to fault.

74a
DEMAND FOR RELIEF
Therefore, the plaintiff demands judgment against
the defendant for damages in an amount to be determined at trial, plus interest, costs, and all other relief
to which she may be entitled at law or in equity.
Respectfully submitted,
CYNTHIA L. MERLINI
By her attorney:
/s/ Theodore J. Folkman
Theodore J. Folkman (BBO No. 647642)
MURPHY & KING, P.C.
One Beacon St.
Boston, Mass. 02108
(617) 423-0400
tfolkman@murphyking.com
Dated: March 27, 2017
724242

75a
APPENDIX E
28 U.S.C. § 1602. Findings and declaration of
purpose
The Congress finds that the determination by United
States courts of the claims of foreign states to immunity from the jurisdiction of such courts would serve the
interests of justice and would protect the rights of both
foreign states and litigants in United States courts.
Under international law, states are not immune from
the jurisdiction of foreign courts insofar as their commercial activities are concerned, and their commercial
property may be levied upon for the satisfaction of
judgments rendered against them in connection with
their commercial activities. Claims of foreign states to
immunity should henceforth be decided by courts of
the United States and of the States in conformity with
the principles set forth in this chapter.
28 U.S.C. § 1603. Definitions
For purposes of this chapter–
(a) A “foreign state”, except as used in section 1608 of
this title, includes a political subdivision of a foreign
state or an agency or instrumentality of a foreign state
as defined in subsection (b).
(b) An “agency or instrumentality of a foreign state”
means any entity–
(1) which is a separate legal person, corporate or
otherwise, and
(2) which is an organ of a foreign state or political
subdivision thereof, or a majority of whose shares or
other ownership interest is owned by a foreign state
or political subdivision thereof, and

76a
(3) which is neither a citizen of a State of the United
States as defined in section 1332(c) and (e) of this
title, nor created under the laws of any third country.
(c) The “United States” includes all territory and waters,
continental or insular, subject to the jurisdiction of the
United States.
(d) A “commercial activity” means either a regular
course of commercial conduct or a particular commercial transaction or act. The commercial character of an
activity shall be determined by reference to the nature
of the course of conduct or particular transaction or
act, rather than by reference to its purpose.
(e) A “commercial activity carried on in the United
States by a foreign state” means commercial activity
carried on by such state and having substantial contact with the United States.
28 U.S.C. § 1604. Immunity of a foreign state from
jurisdiction
Subject to existing international agreements to which
the United States is a party at the time of enactment
of this Act a foreign state shall be immune from the
jurisdiction of the courts of the United States and of
the States except as provided in sections 1605 to 1607
of this chapter.
28 U.S.C. § 1605. General exceptions to the
jurisdictional immunity of a foreign state
(a) A foreign state shall not be immune from the
jurisdiction of courts of the United States or of the
States in any case–
(1) in which the foreign state has waived its immunity either explicitly or by implication, notwithstanding
any withdrawal of the waiver which the foreign

77a
state may purport to effect except in accordance
with the terms of the waiver;
(2) in which the action is based upon a commercial
activity carried on in the United States by the foreign
state; or upon an act performed in the United States
in connection with a commercial activity of the foreign state elsewhere; or upon an act outside the
territory of the United States in connection with a
commercial activity of the foreign state elsewhere
and that act causes a direct effect in the United States;
(3) in which rights in property taken in violation of
international law are in issue and that property or
any property exchanged for such property is present
in the United States in connection with a commercial activity carried on in the United States by the
foreign state; or that property or any property
exchanged for such property is owned or operated by
an agency or instrumentality of the foreign state
and that agency or instrumentality is engaged in a
commercial activity in the United States;
(4) in which rights in property in the United States
acquired by succession or gift or rights in immovable
property situated in the United States are in issue;
(5) not otherwise encompassed in paragraph (2) above,
in which money damages are sought against a
foreign state for personal injury or death, or damage
to or loss of property, occurring in the United States
and caused by the tortious act or omission of that
foreign state or of any official or employee of that
foreign state while acting within the scope of his
office or employment; except this paragraph shall
not apply to–
(A) any claim based upon the exercise or performance or the failure to exercise or perform a

78a
discretionary function regardless of whether the
discretion be abused, or
(B) any claim arising out of malicious prosecution,
abuse of process, libel, slander, misrepresentation,
deceit, or interference with contract rights; or
(6) in which the action is brought, either to enforce
an agreement made by the foreign state with or for
the benefit of a private party to submit to arbitration
all or any differences which have arisen or which
may arise between the parties with respect to a
defined legal relationship, whether contractual or
not, concerning a subject matter capable of settlement
by arbitration under the laws of the United States,
or to confirm an award made pursuant to such an
agreement to arbitrate, if (A) the arbitration takes
place or is intended to take place in the United
States, (B) the agreement or award is or may be
governed by a treaty or other international agreement
in force for the United States calling for the recognition and enforcement of arbitral awards, (C) the
underlying claim, save for the agreement to arbitrate, could have been brought in a United States
court under this section or section 1607, or (D) paragraph (1) of this subsection is otherwise applicable.
* * *

79a
APPENDIX F
Mass. Gen. L. ch. 152 § 24. Waiver of right of
action for injuries
An employee shall be held to have waived his right of
action at common law or under the law of any other
jurisdiction in respect to an injury that is compensable
under this chapter, to recover damages for personal
injuries, if he shall not have given his employer, at the
time of his contract of hire, written notice that he
claimed such right, or, if the contract of hire was made
before the employer became an insured person or selfinsurer, if the employee shall not have given the said
notice within thirty days of the time said employer
became an insured person or self-insurer. An employee
who has given notice to his employer that he claimed
his right of action as aforesaid may waive such claim
by a written notice, which shall take effect five days
after it is delivered to the employer or his agent. The
notices required by this section shall be given in such
manner as the department may approve. If an employee
has not given notice to his employer that he preserves
his right of action at common law as provided by this
section, the employee’s spouse, children, parents and
any other member of the employee’s family or next of
kin who is wholly or partly dependent upon the earnings of such employee at the time of injury or death,
shall also be held to have waived any right created by
statute, at common law, or under the law of any other
jurisdiction against such employer, including, but not
limited to claims for damages due to emotional distress,
loss of consortium, parental guidance, companionship
or the like, when such loss is a result of any injury to
the employee that is compensable under this chapter.

80a
Mass. Gen. L. ch. 152 § 25A. Purchase of insurance; self-insurance; reinsurance; deductibles
In order to promote the health, safety and welfare of
employees, every employer shall provide for the payment to his employees of the compensation provided
for by this chapter in the following manner:
(1) By insurance with an insurer or by membership
in a workers’ compensation self-insurance group,
established pursuant to the provisions of sections
twenty-five E to twenty-five U, inclusive, or
(2) Subject to the rules of the department, by
obtaining from the department annually a license as
a self-insurer by conforming to the provisions of one
of the two following subparagraphs and also to the
provisions of subparagraph (c) if required. Every
employer desiring to be licensed as a self-insurer
shall make application for such license on a form
provided by the department. The application shall
contain: (1) a sworn itemized statement of the assets
and liabilities of the applicant; (2) a payroll report
for the preceding fiscal year of the applicant; (3) a
detailed description of the nature and kind of
business carried on.
(a) By keeping on deposit with the state treasurer
in trust for the benefit and security of employees
such amount of securities, not less in market
value than twenty thousand dollars, as may be
required by the department, said securities to be
in the form of cash, bonds, stocks or other
evidences of indebtedness as the department may
require, and to be used, liquidated and disbursed
only upon order of the department for the purposes of paying the benefits provided for by this
chapter. The department shall, at least semiannu-

81a
ally, determine the liabilities of a self-insurer both
incurred or to be incurred because of personal
injuries to employees under this chapter. The
department shall require an additional deposit or
further security when the sum of the self-insurer’s
liability both incurred or to be incurred exceeds
the deposit or any required reinsurance, or permit
a decrease of said deposit provided the value of
said deposit in no case shall be less than twenty
thousand dollars. The department may permit a
substitution of securities in place of those deposited.
Interest, dividends and other income from said
deposit or deposits shall be payable to the employer
who deposited them, unless and until the department shall direct otherwise. The deposit or
deposits may be returned to the employer if the
employer shall insure with an insurer under
paragraph (1) of this section, or qualify as a selfinsurer under subparagraph (b) of this section,
or if he shall cease to transact business in the
commonwealth; provided, that in any case he
satisfies the department that he is not under any
obligation to pay compensation under this chapter,
or, if the department so requires, he furnishes the
department with a single premium non-cancellable policy, insuring him against any liability that
may have arisen under this chapter or with a bond
executed as surety by some company authorized
to transact the business of workers’ compensation
insurance in this commonwealth, in an amount
and form approved by the department, guaranteeing the payment of any liability on his part that
may have arisen under this chapter. No deposit
so deposited shall be assignable or subject to
attachment or be liable in any way for the debt
of the self-insurer. If an employer engaged in

82a
interstate or foreign commerce certifies that the
laws of the United States provide for liability for
injury to or death of its employees, the deposit
shall be returned to the employer less such amount
as determined by the department as necessary to
satisfy against liability that may already have
arisen under this chapter; and provided that such
determination by the department shall be reviewable by the superior court for the county in which
the employer resides, or, in the case of a corporation, where said corporation has a usual place of
business.
(b) By furnishing annually a bond running to the
commonwealth, with some surety company authorized to transact business in the commonwealth as
surety, in such form as may be approved by the
department and in such amount not less than
twenty thousand dollars as may be required by
the department, said bond, however, to be upon
the condition that if the license of the principal
shall be revoked or if the principal shall cease to
transact business in the commonwealth or if the
department shall refuse to renew the license or if
the principal shall insure with an insurer, the
principal shall upon demand deposit with the
state treasurer an amount of securities equal to
the penal sum of the bond or a single premium
non-cancellable policy issued by some insurance
company authorized to transact the business
of workers’ compensation insurance in this
commonwealth, insuring him against any liability
that may have arisen under this chapter or a bond
executed as surety by some company authorized
to transact the business aforesaid in this commonwealth, in an amount and form approved by the
department, guaranteeing the payment of any

83a
liability on his part that may have arisen under
this chapter. The department shall, at least
semiannually, determine the liabilities of a selfinsurer both incurred or to be incurred because of
personal injuries to employees under this chapter.
The department may at any time require an
additional bond, similarly conditioned, or further
security or permit a decrease in the amount of said
bond provided the amount of the bond or the
bonds in no case shall be less than twenty thousand dollars. The liability of the surety shall not
exceed in the aggregate the penal sum or sums
stated in any such annual bond or bonds or in any
endorsements giving effect to any such increase or
reduction. The department may permit a substitution of a new bond or bonds for the bond or bonds
which have been furnished and shall return the
old bond or bonds to the self-insurer as soon as a
new annual bond has been obtained.
(c) As a further guarantee of a self-insurer’s ability
to pay the benefits provided for by this chapter to
injured employees, every self-insurer shall make
arrangements satisfactory to the department, by
reinsurance, to protect it from extraordinary
losses or losses caused by one disaster.
Such reinsurance shall be in such amounts and form
as the department may approve and shall be effected
with a company as provided in section twenty of
chapter one hundred and seventy-five, provided, the
minimum amount shall be not less than five
hundred thousand dollars. Such reinsurance shall
provide that the use or disposition of any money
received by a self-insurer or former self-insurer
under any such reinsurance shall be subject to the
approval of the department, and no such money

84a
shall be assignable or subject to attachment or be
liable in any way for the debt of the self-insurer
unless incurred under this chapter. The provisions
of this paragraph shall not apply to common carriers
by railroad which are subject to the provisions of the
Federal Employers Liability Act.
(3) The department may make rules governing selfinsurers, and may revoke or refuse to renew the
license of a self-insurer because of the failure of such
self-insurer promptly to make payments of compensation provided for by this chapter, or for any other
reasonable cause. Any person aggrieved by the
action of the department in refusing to grant a
license or in revoking, or refusing to renew, a license
of a self-insurer under this section or by the action
of the department in requiring an additional deposit
or further security under subparagraph (a) of this
section, or in requiring a further bond or security for
an additional sum under subparagraph (b) of this
section may demand a hearing before the department, and if, after said hearing, the department
denies his petition, he may within ten days after
receipt of a notice stating reasons for such denial,
file a petition in the superior court for Suffolk county
for a review thereof; but the filing of such a petition
shall not suspend the action of the department
unless a stay thereof shall be allowed by the justice
pending a final determination by the court. The
court shall summarily hear the petition and may
make any appropriate order or decree.
(4)(a) The commissioner of insurance shall require
each insurer issuing a policy under this chapter to
offer, as a part of the policy or as an optional endorsement to the policy, deductibles, including reasonable
small deductibles optional to the policyholder for

85a
benefits payable under this chapter. Deductible
amounts offered shall be fully disclosed to the
prospective policyholders in writing in amounts
determined by the commissioner. The policyholder
exercising the deductible option shall choose only
one deductible amount.
(b) If the policyholder exercises the option and
chooses a deductible, the insured employer shall
be liable for the amount of the deductible for
benefits paid for each compensable claim of work
injury suffered by an employee or, at the option of
the policyholder, an aggregate deductible as determined by the commissioner. The insurer shall pay
all or part of the deductible amount, whichever is
applicable, to a compensable claim, to the person
or medical provider entitled to the benefits conferred by this chapter and then seek reimbursement
from the insured employer for the applicable
deductible amount. The payment or nonpayment
of deductible amounts by the insured employer to
the insurer shall be treated under the policy
insuring the liability for workers’ compensation in
the same manner as payment or nonpayment of
premiums.
(c) Optional deductibles shall be offered in each
policy insuring liability for workers’ compensation
that is issued, delivered, issued for delivery, or
renewed under this chapter on or after a date to
be determined by the commissioner, unless an
insured employer and insurer agree to renegotiate
a workers’ compensation policy in effect, so as to
include a provision allowing for a deductible.
(d) Premium reductions for deductibles shall be
determined by the commissioner of insurance.

86a
(e) This subsection shall not apply to employers
who are approved to self-insure against liability
for workers’ compensation or group self-insurance
funds for workers’ compensation established pursuant to the provisions of this chapter.
(f) The commissioner of insurance may promulgate regulations to enforce the provisions of this
section.
Mass. Gen. L. ch. 152 § 25B. Applicability of
statute relating to insurance and self-insurers;
employer bringing employees within statute
Section twenty-five A shall not apply to the commonwealth, the Massachusetts Turnpike Authority, the
Massachusetts Bay Transportation Authority, the
Massachusetts Port Authority or the various counties,
cities, towns and districts provided for in sections
sixty-nine to seventy-five, inclusive. Any employer
may bring an employee or employees for whom he is
not required by this chapter to provide for the payment
of compensation within the coverage of this chapter by
providing for the payment of compensation to such
employee or employees as provided by this chapter.
Mass. Gen. L. ch. 152 § 26. Injuries arising out of
and in course of employment
If an employee who has not given notice of his claim of
common law rights of action under section twentyfour, or who has given such notice and has waived
the same, receives a personal injury arising out of and
in the course of his employment, or arising out of an
ordinary risk of the street while actually engaged, with
his employer’s authorization, in the business affairs or
undertakings of his employer, and whether within or
without the commonwealth, he shall be paid compensation by the insurer or self-insurer, as hereinafter

87a
provided; provided, that as to an injury occurring
without the commonwealth he has not given notice of
his claim of rights of action under the laws of the
jurisdiction wherein such injury occurs or has given
such notice and has waived it. For the purposes of this
section any person, while operating or using a motor
or other vehicle, whether or not belonging to his
employer, with his employer’s general authorization or
approval, in the performance of work in connection with
the business affairs or undertakings of his employer,
and whether within or without the commonwealth,
and any person who, while engaged in the usual course
of his trade, business, profession or occupation, is
ordered by an employer, or by a person exercising
superintendence on behalf of such employer, to
perform work which is not in the usual course of such
work, trade, business, profession or occupation, and
while so performing such work, receives a personal
injury, shall be conclusively presumed to be an employee,
and if an employee while acting in the course of his
employment receives injury resulting from frost bite,
heat exhaustion or sunstroke, without having voluntarily assumed increased peril not contemplated by his
contract of employment, or is injured by reason of the
physical activities of fellow employees in which he
does not participate, whether or not such activities
are associated with the employment, such injury shall
be conclusively presumed to have arisen out of the
employment.
If an employee is injured by reason of such physical
activities of fellow employees and the department
finds that such activities are traceable solely and
directly to a physical or mental condition resulting
from the service of any of such fellow employees in the
armed forces of the United States, the entire amount
of compensation that may be found due shall be paid

88a
by the insurer, self-insurer or self-insurance group;
provided, however, that upon an order or pursuant to
an approved agreement of the department, the insurer,
self-insurer or self-insurance group shall be reimbursed
by the state treasurer from the trust fund established
by section sixty-five for all amounts of compensation
paid under this section.
Mass. Gen. L. ch. 152 § 66. Actions for injuries
sustained by employees; limitations; defenses
Actions brought against employers to recover damages
for personal injuries or consequential damages sustained within or without the commonwealth by an
employee in the course of his employment or for death
resulting from personal injury so sustained shall be
commenced within twenty years from the date the
employee first became aware of the causal relationship
between the disability and his employment. In such
actions brought by said employees or by the Workers’
Compensation Trust Fund pursuant to the provisions
of subsection (8) of section sixty-five, it shall not be a
defense:
1. That the employee was negligent;
2. That the injury was caused by the negligence of a
fellow employee;
3. That the employee had assumed voluntarily or
contractually the risk of the injury;
4. That the employee’s injury did not result from
negligence or other fault of the employer, if such
injury arose out of and in the course of employment.

89a
Mass. Gen. L. ch. 152 § 67. Application to
insureds and employers having right of election,
of statutes relating to defenses to actions
Section sixty-six shall not apply to actions to recover
damages for personal injuries received by employees
of an insured person or a self-insurer.
Paragraph 4 of said section sixty-six shall not apply
to actions to recover damages for personal injuries
sustained by any person, whose employer has a right
of election as provided in paragraph 4 of section one.

90a
APPENDIX G
1963 Vienna Convention on Consular Relations,
21 U.S.T. 77
Article 5
Consular functions
Consular functions consist in:
(a) protecting in the receiving State the interests of
the sending State and of its nationals, both individuals
and bodies corporate, within the limits permitted by
international law;
(b) furthering the development of commercial, economic, cultural and scientific relations between the
sending State and the receiving State and otherwise
promoting friendly relations between them in accordance with the provisions of the present Convention;
(c) ascertaining by all lawful means conditions and
developments in the commercial, economic, cultural
and scientific life of the receiving State, reporting
thereon to the Government of the sending State and
giving information to persons interested;
(d) issuing passports and travel documents to nationals
of the sending State, and visas or appropriate documents to persons wishing to travel to the sending state;
(e) helping and assisting nationals, both individuals
and bodies corporate, of the sending State;
(f) acting as notary and civil registrar and in capacities of a similar kind, and performing certain functions
of an administrative nature, provided that there is
nothing contrary thereto in the laws and regulations
of the receiving State;
(g) safeguarding the interests of nationals, both individuals and bodies corporate, of the sending State in

91a
cases of succession mortis causa in the territory of the
receiving State, in accordance with the laws and
regulations of the receiving State;
(h) safeguarding, within the limits imposed by the
laws and regulations of the receiving State, the interests of minors and other persons lacking full capacity
who are nationals of the sending State, particularly
where any guardianship or trusteeship is required
with respect to such persons;
(i) subject to the practices and procedures obtaining in
the receiving State, representing or arranging appropriate representation for nationals of the sending
State before the tribunals and other authorities of
the receiving State, for the purpose of obtaining, in
accordance with the laws and regulations of the
receiving State, provisional measures for the preservation of the rights and interests of these nationals,
where, because of absence or any other reason, such
nationals are unable at the proper time to assume the
defence of their rights and interests;
(j) transmitting judicial and extra—judicial documents or executing letters rogatory or commissions to
take evidence for the courts of the sending State in
accordance with international agreements in force
or, in the absence of such international agreements,
in any other manner compatible with the laws and
regulations of the receiving State;
(k) exercising rights of supervision and inspection
provided for in the laws and regulations of the sending
State in respect of vessels having the nationality of the
sending State, and of aircraft registered in that State,
and in respect of their crews;
(l) extending assistance to vessels and aircraft mentioned in sub—paragraph (k) of this Article and to

92a
their crews, taking statements regarding the voyage of
a vessel, examining and stamping the ship's papers,
and, without prejudice to the powers of the authorities
of the receiving State, conducting investigations into
any incidents which occurred during the voyage, and
settling disputes of any kind between the master, the
officers and the seamen in so far as this may be authorized by the laws and regulations of the sending State;
(m) performing any other functions entrusted to a
consular post by the sending State which are not
prohibited by the laws and regulations of the receiving
State or to which no objection is taken by the receiving
State or which are referred to in the international
agreements in force between the sending State and the
receiving State.
* * *
Article 43
Immunity from Jurisdiction
1. Consular officers and consular employees shall
not be amenable to the jurisdiction of the judicial or
administrative authorities of the receiving State in
respect of acts performed in the exercise of consular
functions.
2. The provisions of paragraph 1 of this Article shall
not, however, apply in respect of a civil action either:
(a) arising out of a contract concluded by a consular
officer or a consular employee in which he did not
contract expressly or impliedly as an agent of the
sending State; or
(b) by a third party for damage arising from an
accident in the receiving State caused by a vehicle,
vessel or aircraft.

93a
APPENDIX H
Government Employees Compensation Act, R.S.C.
1985, c. G-5
Section 1. Short title
This Act may be cited as the Government Employees
Compensation Act.
Section 2. Definitions
In this Act,
“accident” includes a wilful and an intentional act, not
being the act of the employee, and a fortuitous event
occasioned by a physical or natural cause; (“accident”)
“common-law partner”, in relation to an employee, means
a person who was, immediately before the employee’s
death, cohabiting with the employee in a conjugal
relationship, having so cohabited for a period of at
least one year; (“conjoint de fait”)
“compensation” includes medical and hospital expenses
and any other benefits, expenses or allowances that
are authorized by the law of the province where the
employee is usually employed respecting compensation for workmen and the dependants of deceased
workmen; (“indemnité”)
“dependant”, in relation to an employee, includes
(a) a common-law partner of the employee, and
(b) a person who was cohabiting with the employee
immediately before the employee’s death and is a
parent of the employee’s child;
(“personne à charge”)

94a
“employee” means
(a) any person in the service of Her Majesty who is
paid a direct wage or salary by or on behalf of Her
Majesty,
(b) any member, officer or employee of any department, corporation or other body that is established
to perform a function or duty on the Government of
Canada’s behalf who is declared by the Minister
with the approval of the Governor in Council to be
an employee for the purposes of this Act,
(c) any person who, for the purpose of obtaining
employment in any department, corporation or
other body that is established to perform a function
or duty on the Government of Canada’s behalf, is
taking a training course that is approved by the
Minister for that person,
(d) any person who is employed by any department,
corporation or other body that is established to
perform a function or duty on the Government of
Canada’s behalf, who is on leave of absence without
pay and, for the purpose of increasing the skills used
in the performance of their duties, is taking a
training course that is approved by the Minister for
that purpose, and
(e) any officer or employee of the Senate, House of
Commons, Library of Parliament, office of the Senate
Ethics Officer, office of the Conflict of Interest and
Ethics Commissioner, Parliamentary Protective Service or office of the Parliamentary Budget Officer;
(“agents de l’État”)
“Her Majesty” means Her Majesty in right of Canada;
(“Sa Majesté”)

95a
“industrial disease” means any disease in respect of
which compensation is payable under the law of the
province where the employee is usually employed respecting compensation for workmen and the dependants of
deceased workmen; (“maladie professionnelle”)
“Minister” means the Minister of Labour. (“ministre”)
Section 3. Persons excluded
3(1)Persons excluded
This Act does not apply to any person who is a member
of the regular force of the Canadian Forces or of the
Royal Canadian Mounted Police.
3(2)Application
This Act applies in respect of an accident occurring or
a disease contracted within or outside Canada.
Section 4. Persons eligible for compensation
4(1) Persons eligible for compensation
Subject to this Act, compensation shall be paid to
(a) an employee who
(i) is caused personal injury by an accident
arising out of and in the course of his employment,
or
(ii) is disabled by reason of an industrial disease
due to the nature of the employment; and
(b) the dependants of an employee whose death
results from such an accident or industrial disease.
4(2) Rate of compensation and conditions
The employee or the dependants referred to in
subsection (1) are, notwithstanding the nature or class
of the employment, entitled to receive compensation at
the same rate and under the same conditions as are

96a
provided under the law of the province where the
employee is usually employed respecting compensation for workmen and the dependants of deceased
workmen, employed by persons other than Her
Majesty, who
(a) are caused personal injuries in that province by
accidents arising out of and in the course of their
employment; or
(b) are disabled in that province by reason of industrial diseases due to the nature of their employment.
4(3) Determination of compensation
Compensation under subsection (1) shall be determined by
(a) the same board, officers or authority as is or are
established by the law of the province for determining compensation for workmen and dependants of
deceased workmen employed by persons other than
Her Majesty; or
(b) such other board, officers or authority, or such
court, as the Governor in Council may direct.
4(5) Payable to persons determined by awarding
authority
Any compensation awarded to an employee or the
dependants of a deceased employee by a board, officer,
authority or court, under the authority of this Act,
shall be paid to the employee or dependants or to such
person as the board, officer, authority or court may
direct, and the board, officer, authority or court has
the same jurisdiction to award costs as is conferred in
cases between private parties by the law of the
province where the employee is usually employed.
4(6)Compensation, etc., payable out of C.R.F.

97a
There may be paid out of the Consolidated Revenue
Fund,
(a) any compensation or costs awarded under this
Act;
(b) to the board, officers, authority or court authorized by the law of any province or under this Act to
determine compensation cases, such amount as an
accountable advance in respect of compensation or
costs that may be awarded under this Act as, in the
opinion of the Treasury Board, is expedient;
(c) in any province where the general expenses of
maintaining the board, officers, authority or court
are paid by the province or by contributions from
employers, or by both, such portion of the contributions as, in the opinion of the Treasury Board, is fair
and reasonable;
(d) in any province where the board, officers or
authority may make expenditures to aid in getting
injured workmen back to work or removing any
handicap resulting from their injuries, such portion
of those expenditures as, in the opinion of the
Treasury Board, is fair and reasonable; and
(e) to the board, officers, authority or court, such
amount as an accountable advance in respect of any
expenses or expenditures that may be paid under
paragraph (c) or (d) as, in the opinion of the Treasury
Board, is expedient.

98a
Section 7. Contributions to workmen’s compensation fund in certain cases
7(1) Contributions to workmen’s compensation fund
in certain cases
Where an employee locally engaged outside Canada
is usually employed in a place where under the law
respecting compensation to workmen and the dependants
of deceased workmen payments are made to a fund out
of which compensation is paid to workmen and the
dependants of deceased workmen, there may, with the
approval of the Treasury Board, be paid to that fund,
out of the Consolidated Revenue Fund, such payments
in respect of that employee as may be deemed necessary by the Minister.
7(2) Compensation to employee or dependants in
special cases
The Minister may, with the approval of the Treasury
Board, award compensation in such amount and in
such manner as he deems fit to
(a) an employee locally engaged outside Canada
who
(i) is caused personal injury by an accident arising
out of and in the course of his employment, or
(ii) is disabled by reason of any disease that is due
to the nature of the employment and peculiar to
or characteristic of the particular process, trade or
occupation in which the employee was employed
at the time the disease was contracted, and
(b) the dependants of such an employee whose
death results from such an accident or disease,

99a
and who are not otherwise entitled to compensation
under any law respecting compensation to workmen
and the dependants of deceased workmen.
Section 12. No claim against Her Majesty
Where an accident happens to an employee in the
course of his employment under such circumstances as
entitle him or his dependants to compensation under
this Act, neither the employee nor any dependant of
the employee has any claim against Her Majesty, or
any officer, servant or agent of Her Majesty, other
than for compensation under this Act.

100a
APPENDIX I
Locally-Engaged Staff Employment Regulations,
SOR 95/152
Article 2. Interpretation
2 In these Regulations,
civilian employee means a person who is employed
locally under these Regulations and who
(a) is hired in support of the Canadian Forces
outside of Canada under the North Atlantic Treaty
Organization Status of Forces Agreement or any
other bipartite or multipartite agreement,
(b) is not in receipt of allowances under the Foreign
Service Directives or the Military Foreign Service
Regulations, and
(c) is not a contributor under Part I of the Public
Service Superannuation Act; (employé civil)
deputy head has the same meaning as in subsection
2(1) of the Public Service Employment Act; (administrateur général)
Deputy Minister means the Deputy Minister of
Foreign Affairs; (sous-ministre)
employee means a person, other than a civilian
employee, who is employed locally under these
Regulations and who is not in receipt of allowances
under the Foreign Service Directives; (employé)
employing department means a department that
provides the funds for the position in which a person
is employed under these Regulations; (ministère
employeur)

101a
Head of Mission means the senior officer in charge of
a Mission or, in his absence, such person as is
authorized to act in his place; (chef de mission)
integrated employee means an employee in a position
for which the funds are provided by the Department of
Foreign Affairs and International Trade; (employé
intégré)
mission means an office of the Government of Canada
outside Canada, including an office of the Canadian
Forces; (mission)
non-integrated employee means an employee in a
position for which the funds are provided by a
department other than the Department of Foreign
Affairs and International Trade; (employé non intégré)
transfer means the appointment without competition,
that does not result in a change of tenure, of an
employee from one position at a Mission to another
position at a Mission where
(a) the other position has a maximum rate of pay no
higher than the first position,
(b) if the positions are at different Missions that use
the same classification plan, the classification levels
of the two positions are the same, or
(c) if the positions are at different Missions that use
different classification plans, the two Heads of
Missions, after examining the statement of duties of
the positions, indicate in writing that the duties of
the positions are equivalent. (mutation)
* * *

102a
Article 5. Appointments
5(1) Subject to subsection (2), the Deputy Minister
may employ persons locally at a Mission as employees
for a specified period or an indeterminate period in
accordance with these Regulations.
(2) A vacant position at a Mission shall be filled by
competition, subject to priority appointment given to
laid off employees under subsection 11(3) of these
Regulations.
(3) Where more than one person is eligible for priority
under subsection 11(3), the Deputy Minister shall
appoint the most meritorious person.
(4) Where no candidate is found qualified to perform
at the full level of a position, an appointment to the
position may be made at a lower level.
(5) An employee who is appointed for a specified
period ceases to be an employee at the expiration of
that period.
(6) Despite subsection (2), the Deputy Minister may
authorize the transfer of an employee to another position in a Mission if the employee meets the requirements
of the position to be filled using the selection criteria
stated in section 7.
* * *
Article 9. Oaths and Affirmations of Allegiance
and Office
9(1) Every person who is a Canadian citizen shall,
prior to being employed under these Regulations, take
and subscribe an Oath of Allegiance or Affirmation of
Allegiance and an Oath of Office and Secrecy or an
Affirmation of Office and Secrecy in the forms set out
in Schedules I to IV, whichever are appropriate.

103a
(2) Subject to subsection (3), every person who is not
a Canadian citizen shall, prior to being employed
under these Regulations, take and subscribe an Oath
of Office and Secrecy or an Affirmation of Office and
Secrecy in the forms set out in Schedule III or IV,
whichever is appropriate.
(3) Where, at any time, the Deputy Minister is
satisfied that it is not in the best interests of the
Government of Canada that subsection (2) apply to
non-Canadian citizens at a Mission, the Deputy Minister
may exclude such non-Canadian citizens from the
operation of that subsection.
* * *
SCHEDULE III. Oath of Office and Secrecy
I,
solemnly and sincerely swear that I will
faithfully and honestly fulfil the duties that devolve
upon me by reason of my employment in the Public
Service and that I will not, without due authority in
that behalf, disclose or make known any matter that
comes to my knowledge by reason of such employment.
So help me God.
Signature of Employee
at
this day of
Sworn and subscribed before me
Signature of Person Administering Oath

104a
SCHEDULE IV. Affirmation of Office and Secrecy
I,
solemnly and sincerely affirm that I will
faithfully and honestly fulfil the duties that devolve
upon me by reason of my employment in the Public
Service and that I will not, without due authority in
that behalf, disclose or make known any matter that
comes to my knowledge by reason of such employment.
Signature of Employee
at
this day of
Affirmed and subscribed before me
Signature of Person Administering Affirmation

